     July 7, 2003




Defense Infrastructure


Summary of Office of Management
and Budget Circular No. A-76
Related Report Coverage From
FY 1997 Through FY 2002
(D-2003-116)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AAA                   Army Audit Agency
AFAA                  Air Force Audit Agency
DeCA                  Defense Commissary Agency
DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
FAIR                  Federal Activities Inventory Reform
GAO                   General Accounting Office
IHCE                  In-House Cost Estimate
IRO                   Independent Review Officer
MEO                   Most Efficient Organization
OMB                   Office of Management and Budget
PWS                   Performance Work Statement
                 Office of the Inspector General of the Department of Defense

 Report No. D-2003-116                                                       July 7, 2003
    (Project No. D2002CG-0096.000)


          Summary of Office of Management and Budget Circular No. A-76
             Related Report Coverage From FY 1997 Through FY 2002

                                      Executive Summary

Who Should Read This Report and Why? Anyone concerned with competitive sourcing
issues associated with the Office of Management and Budget Circular No. A-76 process should
read this report. In addition, managers responsible for implementing the President’s
Management Agenda initiative on competitive sourcing can use this information to improve
public-private competitions.

Background. The Office of Management and Budget Circular No. A-76 process is a formal
way of comparing the Government and the private sector costs for performing a particular
function. The process saves money for the Government and minimizes staffing requirements
while maintaining a satisfactory level of performance. This report summarizes audit and
evaluation work that supports the Office of Management and Budget Circular No. A-76
program.

Results. From FY 1997 through FY 2002, the General Accounting Office and DoD audit
organizations issued 299 reports on Office of Management and Budget Circular No. A-76
competitions. The General Accounting Office issued 33 reports, the Office of the Inspector
General of the Department of Defense issued 12 reports, the Army Audit Agency issued
221 reports (75 of the 221 reports were not available and excluded from this summary because
the final decision for those competitions had not been made), the Naval Audit Service issued
7 reports, the Air Force Audit Agency issued 3 reports, the Defense Commissary Agency
Internal Review issued 13 reports, and the Defense Logistics Agency Internal Review issued
10 reports. The 224 reports (299 reports less 75 reports not available) address the following
issues:

     • independent review of in-house cost estimates (172 reports),
     • source selection process (18 reports),
     • cost savings from Office of Management and Budget Circular No. A-76 studies
       (12 reports),
     • program oversight and implementation (10 reports),
     • reporting commercial activities under the Federal Activities Inventory Reform Act
       (6 reports),
     • post-most efficient organization reviews (4 reports), and
     • impact assessments (2 reports).
Table of Contents
Executive Summary                                                           i
Background                                                                 1
Objective                                                                  5

Summary
     Office of Management and Budget Circular No. A-76 Program Audit and
       Evaluation Coverage                                                  6

Appendixes
     A. Scope and Methodology                                              24
     B. Report Issues Areas                                                25
     C. Reports Related to the Office of Management and Budget Circular
          No. A-76 Program                                                 34
           General Accounting Office                                       34
           Office of the Inspector General of the Department of Defense    36
           Army Audit Agency                                               37
           Naval Audit Service                                             50
           Air Force Audit Agency                                          50
           Defense Commissary Agency, Internal Review                      51
           Defense Logistics Agency, Internal Review                       52
     D. Synopsis of Comptroller General Decisions Affecting Office of
          Management and Budget Circular No. A-76 Independent Reviews      53
     E. Report Distribution                                                56
Background
           Beginning in 1955, Federal agencies were encouraged to obtain commercially
           available goods and services from the private sector when such actions were
           determined cost effective. The Office of Management and Budget (OMB)
           formalized the policy on March 3, 1966, with issuance of OMB Circular
           No. A-76, “Performance of Commercial Activities.” In 1979, OMB Circular
           No. A-76 was supplemented with a Supplemental Handbook,1 which included
           procedures for competitively determining whether commercial activities should
           be performed in-house, by another Federal agency through an interservice support
           agreement, or by the private sector.
           Reporting Under the Federal Activities Inventory Reform Act. The Federal
           Activities Inventory Reform (FAIR) Act (Public Law 105-270),
           October 19, 1998, directs that agencies develop annual inventories of positions
           not inherently governmental. During FY 2002, the DoD FAIR Act submission
           identified 410,699 civilian full-time equivalent positions. Of those 410,699
           positions, 239,001 were identified as potential candidates for either competition or
           direct conversion under OMB Circular No. A-76. As stated in testimony before
           Congress in March 2003 by the Principle Deputy Under Secretary of Defense for
           Acquisition, Technology, and Logistics, during FY 2000 through FY 2002, DoD
           completed approximately 570 OMB Circular No. A-76 competitions with about
           56,000 positions and is scheduled to complete competitions on an additional
           15,000 positions by the end of FY 2003. The 570 completed OMB Circular
           No. A-76 competitions have resulted in either a contract or in-house decision that
           will generate over the life of the contracts more than $5 billion in savings or cost
           avoidance.

           The Secretary of Defense establishes the criteria for determining when
           Government performance of a commercial activity is required for reasons of
           national defense. Only the Secretary of Defense or designee can exempt
           commercial activities from OMB Circular No. A-76 competition.

           OMB Circular No. A-76 Study Process. The OMB Circular No. A-76 process,
           as shown in the following figure, consists of several phases. During the first
           phase, a performance work statement (PWS) and quality assurance plan are
           developed. After a PWS is prepared, the agency issues the requests for proposal
           or invitations for bid. The second phase consists of performing a management
           study that determines the Government’s most efficient organization (MEO).
           Once the Government’s MEO is determined, an in-house cost estimate (IHCE) is
           prepared. After private sector offers are evaluated and a single private sector
           offer is determined, the private sector cost proposal is compared to the IHCE and
           the lowest cost provider is selected. To preclude the Government from converting
           to a new provider for marginal estimated savings, total estimated savings must

1
    OMB Circular No. A-76, Supplemental Handbook, “Performance of Commercial Activities,” March 1979. The
    handbook was further revised on August 1983, March 1996, and June 1999 and published as the Revised
    Supplemental Handbook.

                                                        1
exceed a conversion cost differential. The conversion cost differential is equal to
the lesser of 10 percent of the IHCE direct personnel costs or $10 million over the
performance period. The OMB Circular No. A-76 administrative appeal process
includes any appeal that was filed as a result of the study. Federal employees (or
their representatives) and contractors who submitted offers affected by the
decision may appeal. An appeal should be submitted within 20 days of
supporting documentation being made public. The Administrative Appeal
Authority should make a final decision within 30 days of receiving the appeal. A
private-sector offeror may then file a protest in accordance with the Federal
Acquisition Regulation part 33, “Protests, Disputes, and Appeals,” if the offeror
feels that the agency conducting the cost comparison did not comply with the
applicable procedures.




                                                          Independent
                                                            Review
                                        MEO* and                                        Appeal
                                        Government Bid                                  Process


                                                                             Cost
   Public                                                                                         Implement
                               *PWS           Concurrently                 Comparison              Contract
Announcement                                                                Decision                 or
                                                                                                    MEO


                                                  Solicitation
                                                              Negotiate


     *MEO -Government’s Most Efficient Organization That is the Basis for the Government’s Bid
     *PWS-Performance Work Statement
                                                                                                       1


                             Figure 1. OMB Circular No. A-76 Process

Oversight of the OMB Circular No. A-76 Program. The Director, Competitive
Sourcing and Privatization, which is part of the Deputy Under Secretary of
Defense (Installations and Environment), is responsible for developing DoD
policies, procedures, and resource guidance that direct the DoD implementation of
OMB Circular No. A-76. That office issued the DoD A-76 Costing Manual. The
Manual is issued under the authority of DoD Directive 4100.15, “Commercial
Activities Program,” March 10, 1989, and DoD Instruction 4100.33, “Commercial
Activities Program Procedures,” September 9, 1985. The Manual provides policy
and procedures for developing the IHCE for the Competitive Sourcing Program.
To develop IHCEs, the Deputy Under Secretary of Defense (Installations and
Environment) implemented standardized costing software called
Win.COMPARE2. The actual comparison of the IHCE to the private sector offer
is accomplished through the electronic Cost Comparison Form produced by

                                                      2
Win.COMPARE2. In addition, DoD maintains a Web site called “SHARE A-76!”
to assist DoD Components undergoing OMB Circular No. A-76 studies.

Audit Role in OMB Circular No. A-76 Process. The OMB Circular No. A-76
Revised Supplemental Handbook, “Performance of Commercial Activities,”
requires an independent review of the PWS, the management plan, the quality
assurance surveillance plan, and the cost estimates before the Cost Comparison
Form is submitted to the contracting officer. The Office of the Inspector General
of the Department of Defense (IG DoD), the Service audit agencies, and internal
review offices of the Defense Commissary Agency (DeCA), and the Defense
Logistics Agency (DLA) have served as independent review officials. To ensure
that the MEO was implemented and that costs and performance levels met the
requirements of the PWS, the OMB Circular No. A-76 Revised Supplemental
Handbook requires post-implementation reviews by an independent party. The
IG DoD and the Service audit agencies have reviewed items such as projected
cost savings, source selection, and impact assessments. See Appendix B for a
matrix of the issues OMB Circular No. A-76 reports cover. See Appendix C for a
list of OMB Circular No. A-76 audits and evaluations and Appendix D for
Comptroller General decisions.

Recent Developments Affecting the OMB Circular No. A-76. Both the
President’s Management Agenda and the Commercial Activities Panel Report to
Congress on the OMB Circular No. A-76 are expected to have a significant
impact on the future of the OMB Circular No. A-76 program.

        President’s Management Agenda Initiative on Competitive Sourcing.
During August 2001, OMB issued the President’s Management Agenda for
FY 2002, which includes an initiative on competitive sourcing. In that report, the
President announced an objective of opening the Federal Government to
competition, citing cost savings for past competitions under OMB Circular
No. A-76 of between 20 to 50 percent. Other benefits cited in the agenda report
include innovation, efficiency, and greater effectiveness. The agenda report
discusses that the Administration intends to adopt procedures that would improve
and expand competition, seeks to implement findings of the Commercial
Activities Panel, and will pursue administrative and legislative actions for
incorporating the full costs of agency work into the daily budget and acquisition
process.

        Commercial Activities Panel Review of the OMB Circular No. A-76
Program. Section 832 of the Floyd D. Spence National Defense Authorization
Act for FY 2001 (Public Law 106-398) required that the Comptroller General
convene a panel of experts who would study the policies and procedures
governing transfer of commercial activities for the Federal Government from
Government personnel to Federal contractors. The panel, subsequently
designated as the Commercial Activities Panel, included a review of:

   •   procedures for determining whether functions should continue to be
       performed by Government personnel,


                                     3
   •   procedures for comparing the costs of performing functions by
       Government personnel with the costs of performing those functions by
       Federal contractors,
   •   implementation by DoD of the FAIR Act of 1998, and
   •   DoD procedures for public-private competitions under OMB Circular
       No. A-76.

The Commercial Activities Panel consisted of representatives from OMB and
DoD, labor unions, private industry, academia, and other individuals with
expertise in the area. On April 30, 2002, the panel issued its report, “Improving
the Sourcing Decisions of the Government.” The panel concluded that some
advantages to the current system existed.

   •   OMB Circular No. A-76 cost comparisons are conducted under an
       established set of rules so that sourcing decisions are based on uniform,
       transparent, and consistently applied criteria.
   •   The OMB Circular No. A-76 process has enabled cost comparisons
       between sectors that have vastly different approaches to cost accounting.
   •   The current OMB Circular No. A-76 process has been used to achieve
       significant savings and efficiencies for the Government, regardless of
       whether the public or the private sector wins.

The panel also heard criticism of the OMB Circular No. A-76 process as being
slow, too complicated, unfair to either or both sectors, and causing needless
distress to Federal workers. The panel recommended that all parties would be
better served conducting public-private competitions under the framework of the
Federal Acquisition Regulation, while using appropriate elements of the current
OMB Circular No. A-76 process. The panel recommended limited changes to
OMB Circular No. A-76 that would strengthen conflict of interest rules, improve
auditing and cost accounting, and provide for binding performance agreements.
Finally, the panel recommended that the Government take steps to encourage
high-performing organizations and continuous improvement throughout the
Federal Government, independent of the use of public-private competitions.

       Revision of OMB Circular No. A-76. OMB revised OMB Circular
No. A-76, on May 29, 2003. OMBs new Circular No. A-76 guidance changed the
following for the process:

   •   Emphasized sector neutral competition
   •   Established competition time frames
   •   Eliminated direct conversions and created a new, streamlined competition
       process
   •   Established greater flexibility for creating the MEO




                                     4
       •    Required categorizing activities as either commercial or inherently
            governmental, thereby creating a more accurate picture of an agency’s
            activities
       •    Revised process identification for inherently governmental activities


Objective
    The objective of the report was to summarize audit and evaluation coverage of the
    OMB Circular No. A-76 program. See Appendix A for scope and methodology.




                                        5
            Office of Management and Budget Circular
            No. A-76 Program Audit and Evaluation
            Coverage
                 From FY 1997 through FY 2002, the GAO and DoD audit organizations
                 issued 299 reports on DoD implementation of the OMB Circular No. A-76
                 program. GAO issued 33 reports, the IG DoD issued 12 reports, the Army
                 Audit Agency (AAA) issued 221 reports,2 the Naval Audit Service issued
                 7 reports, the Air Force Audit Agency (AFAA) issued 3 reports, DeCA issued
                 13 reports, and the DLA issued 10 reports. The 224 reports reviewed
                 (299 reports less 75 unavailable reports) cover the following 7 issue areas:

                     •    independent review of the IHCE (172 reports),
                     •    source selection process (18 reports),
                     •    cost savings from OMB Circular No. A-76 studies (12 reports),
                     •    program oversight and implementation (10 reports),
                     •    reporting commercial activities under the FAIR Act (6 reports),
                     •    post-MEO performance reviews (4 reports), and
                     •    impact assessments (2 reports).

                 In addition, GAO made seven Comptroller General decisions that related to
                 the OMB Circular No. A-76 program. Appendix B shows the issue area
                 where each report was classified, and Appendix C lists all of the reports
                 reviewed.


Independent Review of the In-House Cost Estimates
            Criteria. The OMB Circular No. A-76 Revised Supplemental Handbook requires
            that the agency OMB Circular No. A-76 Independent Review Officer (IRO)
            certify the Government’s cost estimates as compliant with the procedures and
            requirements described in the supplement. Generally, the Service auditors have
            been responsible for performing independent reviews of the respective Services.
            The Internal Review offices of DeCA and DLA serve as IROs for those two
            agencies. The IG DoD has performed independent reviews for Defense agencies
            but no longer performs the function as the result of independence issues.

            The independent reviews normally cover the PWS, management plan, quality
            assurance surveillance plan, and any Government-developed cost estimates. The
            general objectives of the independent review ensure that:

2
    Of the 221 AAA reports, 75 were not available and were excluded from this summary because the final decision for
    those OMB Circular No. A-76 solicitations had not been made.

                                                           6
   •   data contained in the management plan reasonably establish the
       Government’s ability to perform work requirements of the PWS within
       resources of the MEO, and

   •   all the costs entered on the Cost Comparison Form are fully justified and
       calculated in accordance with procedures described in part II of the OMB
       Circular No. A-76 Revised Supplemental Handbook.

The Government’s IHCE requires the signature of the IRO before the form can be
submitted for consideration to the contracting officer. The IRO may certify the
IHCE several times. For example, the IRO certifies the IHCE for the
Government’s initial submission to the contracting officer and after any required
changes are subsequently made before bid opening. IRO reports document the
changes made to the Government IHCE as a result of the independent review.

Summary of Causes for Adjustments to the In-House Cost Estimates. In the
172 reports reviewed, the IHCEs required adjustments for many reasons.
Individual reports identified multiple deficiencies so the number of adjustments
does not equal the number of reports. We developed an inventory of common
causes for adjustments and determined the frequency of changes by problem.
About half (88) of the 172 independent review reports were excluded from the
inventory because they were follow-on reviews of the initial IHCE review or
reviewed other documents rather than the IHCE. In those instances, results from
the reports were excluded.

Table 1 summarizes IHCE adjustments the independent review identified.
Table 2 through Table 9 provide further descriptions of the causes for adjustments
for each of the issues identified in Table 1.




                                    7
      Table 1. Summary of Cost Estimate Adjustments Identified
                       by the Independent Review
                                                      Number of
                   Causes for Adjustments              Reports
    Adjustments to one-time conversion costs                   53
    Adjustments to salaries, wages, and other entitlements           45
    Adjustment to cost estimates                                     39
    Cost inclusions and exclusions                                   37
    Inflation factors and economic price adjustment                  36
    Adjustments to staffing requirements calculations                27
    Data entry adjustments                                           20
    Other causes for adjustment                                      54

        Adjustments to One-Time Conversion Costs. One-time conversion
costs were misstated in 53 reports in our review. Table 2 summarizes the causes
for adjustment to the one-time conversion cost.


   Table 2. Summary of Adjustments to One-Time Conversion Costs

                                                             Number of
                     Causes for Adjustments                   Reports
      Excluded or inaccurate estimate of relocation costs            25
      Excluded or inaccurate estimate of costs for
                                                                     22
      homeowner assistance
      Included costs not allowed as part of the one-time
                                                                     16
      conversion costs
      Excluded or inaccurate estimate of retraining costs            14
      Excluded or inaccurate estimate for conducting a
                                                                      6
      joint inventory
      Excluded or inaccurate estimate of severance pay                5
      Excluded or inaccurate estimate for temporary
                                                                      4
      contentious coverage of health benefits
      Other causes for adjustment                                    18



                                     8
When the Government converts to or from in-house, contract, or interservice
support agreement performance, one-time costs are incurred. One-time
conversion costs include costs for relocation, retraining, conducting a joint
inventory, severance pay, and temporary continuous coverage of health benefits.
On March 14, 2001, the Deputy Under Secretary of Defense (Installations and
Environment) issued the DoD A-76 Costing Manual, which eliminates the need
for separately calculated one-time conversion costs for labor-related costs. DoD
now uses 4 percent of the annual basic pay for each Government civilian position
included in the MEO. The approach simplifies the costing process, provides a
level of standardization for DoD Components, and is projected to reduce the
amount of adjustments required to labor-related one-time conversion costs.

        Adjustments to Salaries, Wages, and Other Entitlements and Pay.
Salaries, wages, and other entitlements were misstated in 45 reports. Table 3
summarizes the causes for adjustment to the calculation of salaries, wages, and
other entitlements and pay.

          Table 3. Summary of Adjustments to Salaries, Wages,
                     and Other Entitlements and Pay
                                                              Number of
                    Causes for Adjustments                     Reports
    Did not use current salary tables for MEO or contract
                                                                      24
    administration positions
    Excluded or incorrectly estimated premium pay costs               20
    Excluded or incorrectly estimated night shift
                                                                      13
    differential
    Incorrectly estimated Sunday premium pay                            7
    Excluded or incorrectly estimated other entitlements
                                                                        5
    pay for qualified employees
    Other causes for adjustment                                       14


The Office of Personnel Management annually publishes salary and hourly rates
for positions in an MEO. Obtaining the most recent wage and salary tables for
cost comparisons is critical. In addition to the regular pay, Government
employees may receive other entitlements and pay such as night differential pay
for Federal Wage System employees, environmental differential pay, premium
pay for law enforcement officers and Federal civilian firefighters, night
differential pay for General Schedule positions, hazardous pay, overtime, holiday,
and uniform allowances.



                                    9
      Adjustments to Cost Estimates (Cost Calculated Outside of
win.COMPARE2 or COMPARE). Cost estimates calculated outside of
win.COMPARE2 or COMPARE were misstated in 39 reports. Table 4
summarizes the causes for adjustments to the cost estimates.

          Table 4. Summary of Adjustments to Cost Calculated
                       Outside of win.COMPARE2
                                                        Number of
                    Causes for Adjustments               Reports
    Made analytical, mathematical, overstatement, and
                                                                         27
    understatement errors
    Failed to inflate or incorrectly inflated costs                       6
    Did not use the most up-to-date estimates for costs                   5
    Other causes for adjustment                                           3


The requirements of the solicitation are evaluated before entering costs in the
IHCE. The interim guidance allows calculation of material and supply costs by
either using adjusted estimates of historical costs or by estimating costs using
prevailing market prices for the material quantities. Cost data must be as current
as possible and conform to solicitation requirements. The collected data and costs
should then be analyzed and calculated before inclusion in the IHCE.

        Cost Inclusions and Exclusions. Costs were inappropriately included or
excluded in 37 reports. Table 5 summarizes the causes for adjustment for the cost
inclusions or exclusions.

             Table 5. Summary of Inclusions and Exclusions

                                                                Number of
                   Causes for Adjustments                        Reports
    Excluded costs required by the PWS                                 24
    Included costs not required by the PWS                               19
    Included costs not allowed by the OMB Circular No.
                                                                          4
    A-76
    Other causes for adjustment                                           2


Guidance requires that costs not directly attributable to the work specified in the
PWS the MEO will perform must be omitted from the IHCE.


                                      10
       Inflation Factors and Economic Price Adjustment. Inflation factors
and economic price adjustments were misstated in 36 reports. Table 6
summarizes the causes for adjustment to inflation factors and the economic price
adjustment.

      Table 6. Summary of Inflation Factors and Economic Price
                                 Adjustment
                                                      Number of
                    Causes for Adjustments              Reports
    Did not use the current year inflation factors             23
    Incorrectly determined economic price adjustment                     20


The Office of Management and Budget annually determines and issues inflation
factors. IHCEs are required to use current inflation factors for the period under
review. In the IHCE, some of the costs are subject to economic price adjustment.
Positions subject to an economic price adjustment are inflated using inflation
factors applicable to (and through) the first performance period only. The
Government reimburses labor cost escalations, and those costs are not included in
a contractor’s offer because the positions possess skills the Department of Labor
has determined are covered by the Service Contract Act or Davis-Bacon Act. The
objective is to ensure that the Government does not inflate the costs for skills that
a contractor has been told not to escalate beyond the first performance period.
Costs for materials and supplies may also be subject to economic price
adjustment. The contracting officer should provide verification that economic
price adjustment is applicable for materials and supplies.

Adjustments to Staffing Requirements Calculations. Staffing requirements
were misstated in 27 reports. Table 7 summarizes the causes for adjustment to the
staffing requirements.




                                     11
      Table 7. Summary of Adjustments to Staffing Requirements
                             Calculations
                                                       Number of
                  Causes for Adjustments                Reports
    Failed to correctly calculate the number of full-time
                                                                        18
    equivalents for performing functions
    Failed to calculate the correct number of contract
                                                                         6
    administration personnel
    Failed to determine the correct grade for MEO
                                                                         6
    personnel positions
    Failed to determine the correct grade for contract
                                                                         5
    administration personnel
    Other causes for adjustment                                          2


Both personnel costs and contract administration costs are determined in the
IHCE. Personnel costs include the cost of all the direct in-house labor and
supervision necessary for accomplishing the requirements specified in the PWS.
Labor and supervision costs are based on the in-house staffing estimate and
proper wage or grade classifications described in the MEO. Contract
administration costs are the costs the Government incurs in the event the work
being cost compared is converted to contract. The MEO staffing level is used to
estimate the size of the contract or interservice support agreement organization for
determining the cost of contract administration that will be added to the contractor
or interservice support agreement price.

       Data Entry Adjustments. Data entry errors were made in 20 reports.
Table 8 summarizes errors dealing with the data entry process.


              Table 8. Summary of Data Entry Adjustments

                                                               Number of
                    Causes for Adjustments                      Reports
    Entered information in IHCE incorrectly, although
                                                                        11
    correct in supporting documentation
    Entered data on the wrong line                                      10
    Entered information in the IHCE incorrectly; unknown
                                                                         4
    if correct in supporting documentation



                                    12
     The in-house costs entered into the win.COMPARE2 program are developed
     before being entered into the cost comparison form in win.COMPARE2.

            Other Causes for Adjustment to the IHCE. Other cost adjustments
     were made in 54 reports. Table 9 summarizes the other causes for adjustments to
     the IHCE.


         Table 9. Summary of Other Causes for Adjustment to the IHCE

                                                                    Number of
                        Causes for Adjustments                       Reports
         Incomplete, inadequate, or no supporting
         documentation for cost, functions, or other parts of the           18
         MEO or IHCE
         Incorrect performance periods used for the IHCE                    18
         Incorrect effective date used for tables in the IHCE               14
         Other causes for adjustment                                         4


     Other OMB requirements for developing the IHCE were not observed and
     resulted in further causes for adjustments. Data used for costs entered into the
     IHCE must be documented. The interim guidance of the DoD A-76 Costing
     Manual requires that cost comparisons are conducted using not less than 5 years
     of performance, excluding the phase-in period, for both Government and contract
     or interservice support agreement offerors.


Source Selection Process
     Criteria. OMB Circular No. A-76 requires for the IHCE an accurate
     determination of the costs of performing the commercial activity. To ensure
     equitable comparison of contractor costs to the Government costs, both figures
     must be based on the same PWS and include any significant identifiable costs the
     Government would incur under either alternative. When an appearance or
     perception exists that the source selection process was unfairly performed or that
     the rules for OMB Circular No. A-76 solicitations were not followed, audit
     organizations are sometimes requested to independently examine the procedures
     and determine if the source selection was performed fairly.

     Source Selection Process Issues. Of the reports reviewed, 18 examine the source
     selection process. The following summarizes issues dealing with the source
     selection process.



                                         13
   •   Officials used the wrong guidance for economic analysis and costs, and
       did not follow the requirements of DoD Instruction 4100.33 and the OMB
       Circular No. A-76 Handbook.

   •   The decision to outsource did not comply with guidance because officials
       were not familiar with legal and policy requirements for outsourcing
       commercial functions.

   •   A function of 12 employees was inappropriately converted under direct
       conversion to contract without a simplified cost comparison. The function
       qualified for an OMB Circular No. A-76 cost comparison study because
       OMB Circular No. A-76 guidelines do not allow a commercial activity
       that exceeds 10 employees to be modified, reorganized, divided, or in any
       way changed for the sole purpose of circumventing the requirements of a
       cost comparison.

   •   The Command emphasized completion of an arbitrary and exceedingly
       optimistic milestone schedule.

   •   Inexperienced and untrained personnel were appointed as IROs, and those
       officers were not independent from management officials responsible for
       the competition.

Source Selection Process Recommendations and Lessons Learned. The
following list summarizes the review of the source selection process
recommendations and lessons learned.

   •   Studies took longer than initially projected. According to a 2002 GAO
       report, the most recent available data indicate that studies take an average
       of 22 months for single-function studies and 31 months for multifunction
       studies. Agencies need to keep those time frames in mind when projecting
       resources required to support those studies and time frames for when
       savings are expected to be realized.

   •   Costs and resources required for the studies were underestimated. Once
       DoD Components determined that the studies were taking longer than
       initially projected, they realized that a greater investment of resources than
       originally planned would be needed to conduct the studies.

   •   Selection and grouping of functions to compete can be difficult.
       Guidelines implementing the FAIR Act permit agencies to exclude certain
       commercial activities from being deemed eligible for competition. Factors
       such as geographic dispersion of positions and inability to separate
       commercial activities from inherently governmental activities could limit
       the number of inventory positions studied.

   •   Development and maintenance of reliable estimates of savings were
       difficult. While the DoD A-76 program was achieving savings,
       determining precisely the magnitude of those savings was difficult.
       Savings may be limited in the short term because up-front investment

                                     14
           costs associated with conducting and implementing studies must be
           absorbed before long-term savings accrue.

       •   Complete supporting documentation should be provided. Documents such
           as the management study, PWS, and the crosswalk should be stand-alone
           documents that are complete and self-explanatory.

       •   Crosswalks should be completed before the Independent Review Team
           begins review of the management study. The management study should
           link the proposed Government staffing to the workload in the PWS. The
           crosswalk matches the hours of staffing by position in the MEO to the
           specific tasks in the PWS. The linkage is evidence that the proposed
           staffing is adequate to accomplish the workload described in the PWS and
           related solicitation.

       •   Explain any staffing reductions and efficiencies in the management study
           so that a third party can see how the organization moves from where it
           started to where it is going to end up. The study should start with a
           baseline table of distribution and allowances organization for the function
           under study and fully explain any reductions or additions made to arrive at
           the proposed MEO.

       •   Review in detail the solicitation document, particularly the amendments,
           to ensure that the proposed organization meets any additional
           requirements not found in the PWS. The effort should be a joint effort by
           the independent review team, installation personnel, and the contracting
           officer.

       •   Complete and review the job descriptions, including those that are
           Government in nature. Without a full review of each description, the
           command may not include in its MEO all the positions required to perform
           or supervise the work in the PWS.

       •   Keep abreast of recent GAO decisions. The rulings generally set the trend
           for future studies. If GAO ruled on a point of debate, an assumption exists
           that bidders are aware of the ruling and will protest on such a basis.


Cost Savings From OMB Circular No. A-76 Studies
    Criteria. Section 2461a, title 10, United States Code, “Development of System
    for Monitoring Cost Savings Resulting From Workforce Reductions,” requires
    that the Secretary of Defense establish a system for monitoring the performance,
    including cost of performance, of each function of the DoD that is the subject of a
    workforce review.

    DoD Instruction 4100.33 requires the Commercial Activities Management
    Information System database be used to track commercial activities that undergo
    an OMB Circular No. A-76 cost comparison and activities that are directly
                                        15
converted to contract without a cost comparison. The Commercial Activities
Management Information System was used to provide cost comparison
information to Congress, OMB, GAO, and the Office of the Secretary of Defense.
Using the Commercial Activities Management Information System, the Deputy
Under Secretary of Defense (Installations and Environment) estimated savings, as
a result of OMB Circular No. A-76 competitions, was $5.5 billion from FY 1997
through FY 2001 for DoD. The Deputy Under Secretary of Defense (Installations
and Environment) estimated savings would be comparable for both FY 2002 and
FY 2003.

Expected Savings. Of the reports reviewed, 12 address cost savings from OMB
Circular No. A-76 competitions: GAO issued 9 reports, and the AAA, the Naval
Audit Service, and the AFAA each issued 1 report. The reports show that
competition between the public sector and the private sector, regardless of which
one wins, could result in savings. Further, DoD expects to achieve about
$9.2 billion in savings during FY 1997 through FY 2005 and $2.8 billion in
annual recurring savings after FY 2005. DoD achieved savings through the OMB
Circular No. A-76 process primarily by reducing the number of in-house
positions.

Imprecision of Expected Savings. Efforts to outsource activities under the OMB
Circular No. A-76 yielded some savings, but the savings were often less than
anticipated. The reports show that savings estimates were imprecise for a number
of reasons.

    •   Baseline cost estimates from which savings were estimated were usually
        calculated using an average cost of salary and benefits for the number of
        authorized positions rather than using actual costs for the positions
        actually filled, which would have been more precise. Because those
        types of costs were not included in the baseline, a comparison of costs
        may have resulted in overstating or understating the cost savings.

    •   Savings estimates did not reflect the study and implementation costs,
        which offset savings for the short term.

    •   Workload requirements change, affecting program costs and the baseline
        from which savings were calculated.

    •   Savings were not linked to specific functions under study or targeted for
        future studies.

    •   DoD does not yet have the systems in place that can provide reliable cost
        information needed to precisely identify savings.

    •   DoD has not fully calculated either the investment costs associated with
        undertaking the competitions or the personnel separation costs likely to
        be associated with implementing them.




                                   16
   •   Savings were based on studies of public-private competitions in highly
       competitive private sector markets; however, competitive markets may
       not currently exist in some areas.

   •   Estimates were heavily premised on initial savings estimates from
       previous outsourcing efforts, and such estimates change as the scope of
       the work and wages change.

   •   Continuing budget and personnel reductions could make it difficult to
       sustain the levels of previously projected savings.

Barriers to Achieving Costs Savings. The reports show that several barriers to
achieving savings exist.
   •   Difficulty in overcoming institutional resistance to change exists in an
       organization as large and complex as the DoD.

   •   Employees are concerned about the potential loss of jobs.

   •   Procurement and commercial activity data systems do not identify the
       extent to which Defense Components may be outsourcing functions
       without complying with OMB Circular No. A-76 procedures or
       section 2461, title 10, United States Code, “Commercial or Industrial
       Type Functions,” January 2, 2001, congressional reporting requirements.

   •   Comprehensive planning to identify specific functions and locations for
       competition among the Services has been limited. Identifying and
       prioritizing specific activities and functions for study as well as
       conducting competitions have primarily been up to the individual
       installation or major commands.

   •   Highly competitive markets do not exist in some areas proposed for
       competition.

   •   Legislation prohibits the outsourcing of certain functions, and other
       provisions affect the extent to which outsourcing can be accomplished.

   •   The potential could exist for a lack of resources to perform outsourcing
       studies and funding to pay for outsourced activities.




                                   17
Program Oversight and Implementation
    Of the reports reviewed, 10 reports examined the oversight and implementation of
    various aspects of the OMB Circular No. A-76 process, as shown in the following
    examples.

    Program Oversight and Implementation Issues. The following summarizes the
    program oversight and implementation issues.

       •   Contracting with the private sector involves uncertainties. The
           uncertainties include funding and the number of employees who are
           willing to accept employment with the private sector to maintain the
           existing system while a new system is being developed.

       •   The Air Force plan to deactivate the 38th Engineering Installation Wing
           and transfer its wartime mission to the Air National Guard without
           increasing the Guard’s authorized end-strength was not associated with
           OMB Circular No. A-76.

       •   The Navy designated some positions normally open to OMB Circular
           No. A-76 competition as essential for maintaining rotational assignments
           for personnel returning from sea duty.

       •   Federal agencies need to develop overhead rates applicable to OMB
           Circular No. A-76 competitions.

       •   The use of best value procurement is an important development in
           outsourcing competition.

    Program Oversight and Implementation Recommendations and Lessons
    Learned. The following list summarizes from review of the program oversight
    and implementation process recommendations and lessons learned.
       •   The Army needs to establish a mechanism for reporting and evaluating the
           costs and the effects of competitive sourcing studies.

       •   The knowledge and information gained from the commercial activity
           studies and other Army initiatives, such as Activity Based Costing, needs
           to be shared between installations and contractors.

    The AAA suggested the following methods for speeding the completion of
    studies:

       •   Use a PWS already developed for similar functions under study.

       •   Look at workload collection systems as soon as commercial activity
           studies are announced, or beforehand if the command plans to study the
           function in the future.

                                       18
       •   Make sure installations establish detailed milestones for each commercial
           activity study and enter those dates in the tracking system set up by the
           Assistant Chief of Staff for Installation Management uses.

       •   Study the entire function.

       •   Decide on the handling of unique labor sources, such as prisoners,
           volunteers, and borrowed military personnel, to avoid delays.

       •   Make sure activities understand as well as can explain and defend
           products such as the MEO/management study, accepted from contractors.


Reporting Commercial Activities Under the FAIR Act
    Criteria. Public Law 105-270, the FAIR Act, requires that Executive agencies
    provide Congress with an annual inventory of activities not inherently
    governmental. OMB Circular No. A-76 Revised Supplemental Handbook,
    implements FAIR Act requirement for annual reporting. The FAIR Act defines
    inherently governmental positions as those positions that are so intimately related
    to the public interest as to require performance by Federal Government
    employees. Interested parties, as defined by the act, may challenge agency
    inventories based on omission of a particular activity from, or inclusion of, a
    particular activity on an inventory and appeal adverse agency decisions.

    The Deputy Under Secretary of Defense (Installations and Environment)
    maintains an inventory of functions in a public online database called FAIRNET.
    The DoD FAIR Act submission for FY 2002 identified 410,699 civilian full-time
    equivalent positions engaged in commercial activities. Of those 410,699 full-time
    equivalent positions, 239,001 positions were identified as potential candidates for
    competition under OMB Circular No. A-76.

    Use for Inventories. Of the reports reviewed, six reports addressed
    implementation of the FAIR Act: GAO issued four reports, and IG DoD issued
    two reports. The following list summarizes the uses of the FAIR Act inventories
    noted in the reports.

       •   The civilian agencies have begun a review of their inventories to identify
           ways that would improve their inventories or use the information gained to
           make more informed management decisions.

       •   DoD is identifying commercial activities that could be subject to
           competition that will determine whether it would be more cost efficient to
           maintain the activities in-house or contract performance with the private
           sector.




                                        19
       •   Possible consideration of contracting for some of the activities makes it
           important that interested parties are able to look across agency inventories
           for identifying differences in whether agencies consider an activity
           inherently governmental, commercial and subject to competition, or
           exempt form competition.

    Issues With Inventories. The following list summarizes the issues that the GAO
    and the IG DoD noted in their reports.

       •   The Military Services and Defense agency did not always consistently
           categorize similar activities because of the lack of clear guidance on how
           to identify which activities are inherently governmental, commercial and
           exempt from competition, and commercial and eligible for competition.

       •   The June 1999 OMB list of agency function codes used to characterize the
           types of commercial activities they perform was incomplete.

       •   OMB allowed agencies to use an expanded list of function codes for their
           FAIR Act inventories not contained in the June 1999 OMB guidance. The
           interested parties that did not have the expanded list may have had
           difficulty identifying the activities agencies perform.

       •   Function codes on both the official and expanded lists are vague, and
           OMB has not defined the codes. GAO stated that agency officials said the
           OMB function codes were not adequate to clearly categorize the
           commercial activities their employees perform.


Post-MEO Performance Reviews
    Criteria. The Revised Supplemental Handbook, Part I, Chapter 3, L, “Post-MEO
    Performance Review,” requires a formal review and inspection of the MEO when
    services are performed in-house as a result of a cost comparison. Typically, the
    review should be conducted at the end of the first full year of performance on not
    less than 20 percent of the functions the Government performs. The post-MEO
    performance review will confirm that the MEO was implemented in accordance
    with the transition plan, establish the MEO ability to perform the services of the
    PWS, and will confirm that the actual costs are within the estimates contained in
    the in-house estimate.

    Results of Post-MEO Performance Reviews. Of the reports reviewed, 4 were
    classified as post-MEO performance reviews. The 4 reports summarize 17 post-
    MEO performance reviews (1 for IG DoD, 1 for AAA, and 15 for AFAA). The
    post-MEO reviews evaluated MEO implementation, performance, and costs and
    showed overall that the MEOs were effectively implemented. Figure 2 shows the
    results of the 17 reviews in each of the 3 areas evaluated by the reviewers—
    implementation, performance, and costs.



                                        20
           17

           15
                   13
           13

           11                                                      10                                              10

            9
 Reviews




                                                                                                                                     7
            7

            5                                                                        4
                                    3                                                                3
            3
                                                    1
            1
                Implemented   Not Implemented Not Implemented   Accomplished   Not Accomplished   Data Not       Achieved       Exceeded MEO
           -1                 within Timeframe    Properly                                        Available   Expected Saving   Cost Estimates

                              Implementation                                    Performances                               Costs




                                                Figure 2. Results of Review

        Implementation. The 4 reports show that 13 MEOs were implemented in
accordance with the MEO transition plan, 3 MEOs did not implement the MEO
within expected time frames, and 1 MEO was implemented improperly. Three
post-MEOs the AFAA reviewed revealed problems with implementation of the
MEO transition plan within the expected time frame. Implementation problems
occurred because installation manpower personnel did not monitor MEO
implementation. Also, installation commanders were not required to provide
oversight for timely implementation. The IG DoD noted that the Defense Finance
and Accounting Service (DFAS) did not document or track implementation and
transition milestones outlined in the management plan, the transition plan, and the
quality assurance surveillance plan, which caused the MEO to be implemented
improperly.

        Performance. The reports show that 10 MEOs were performing the work
that the PWS required, 4 MEOs were not accomplishing the work required, and
3 MEOs did not retain the data necessary to determine if the work was being
performed.



                                                                   21
    The AFAA noted four MEOs did not accomplish the work required in the MEO
    PWS because Air Force guidance did not require that MEO officials monitor
    performance against work statement requirements and use the quality assurance
    surveillance plan to monitor performance.

    The AFAA reported that the MEO did not retain the data that could enable a work
    assessment to be performed. The IG DoD also reported that documentation of
    quality assurance performance evaluations of the MEO was not available because
    a quality assurance monitor had not been assigned to oversee the MEO
    performance. The quality assurance specialist is responsible for monitoring,
    assessing, recording, and reporting on the technical performance of the MEO on a
    day-to-day basis. The AFAA also noted that Air Force guidance does not require
    that MEO officials develop and maintain workload data collection systems.

           Cost. The reports show that 10 MEO activities operated within estimated
    operating cost and 7 MEO activities exceeded MEO cost estimates.

    The IG DoD and AFAA issued reports detailing the seven MEO activities that
    exceeded cost estimates. The IG DoD concluded that budget figures did not
    correspond to either the original or the revised MEO cost estimates. The
    responsible activity could not present documentation explaining the differences.
    The activity also did not have reliable operating information that could confirm
    implementation of the MEO and that MEO deviation would achieve projected
    cost savings. The AFAA identified that seven MEOs exceeded the in-house cost
    estimates primarily as a result of understatements in estimated personnel,
    material, and supply costs.


Impact Assessments
    GAO issued two reports dealing with the impact of OMB Circular No. A-76
    competitions and management decisions. GAO Report No. 01-388, “DoD
    Competitive Sourcing: Effects of A-76 Studies on Federal Employees’
    Employment, Pay, and Benefits Vary,” March 16, 2001, states that OMB Circular
    No. A-76 competitions have reduced estimated costs of Defense activities by
    reducing the number of positions needed to perform activities. GAO determined
    that cost savings were true whether the Government’s in-house organization or
    the private sector won the competition. The GAO review indicated that half of
    the civilian employees affected by OMB Circular No. A-76 competitions
    remained in Federal service following the studies.

    GAO Report No. GAO/NSIAD-00-72, “Defense Management: Actions Needed
    to Sustain Reform Initiatives and Achieve Greater Results,” July 25, 2000,
    discusses the effectiveness of the Defense Reform Initiative. Competitive
    sourcing that uses the OMB Circular No. A-76 process is one of only two
    components of the Defense Reform Initiative program identified as having formal
    savings by DoD. GAO suggests in the report that the Defense Management
    Council work more closely to foster a DoD-wide solution to problems.
    Additionally, the report suggests establishment of reform priorities that ensure the

                                         22
    most serious problems of DoD get priority. DoD has had problems initiating
    reforms for a variety of reasons. The most notable reason GAO found was
    resistance to change. Other problems identified were the use of outdated
    computer systems and employee concerns over loss of jobs.


Comptroller General Decisions on OMB Circular No. A-76
  Protests
    As shown in Appendix D, the GAO has sustained bid protests critical of the
    adequacy of the Government’s proposal and IRO process. The decisions have
    proved effective as lessons learned, as shown in the following examples.

       •   Four protest decisions (Del-Jen, Incorporated, BAE Systems, Aberdeen
           Technical Services, and Trajen, Incorporated ) pointed out the necessity of
           fully staffing the MEO that address the work requirements in the PWS.

       •   The Jones/Hill Joint Venture decision heightens the need for separating
           personnel working on the PWS from those preparing the MEO to avoid an
           organizational conflict of interest. In the Jones/Hill Joint Venture
           decision, the Comptroller General specified that a “Circular A-76 cost
           comparison, should be documented in sufficient detail to allow for the
           meaningful review of the merits of a protest, as is dictated by the
           fundamental principle of Government accountability . . . .”

       •   The DynCorp decision points out the need for avoiding situations that
           result in unfair competition.




                                       23
Appendix A. Scope and Methodology
   This report summarizes OMB Circular No. A-76 related audit and evaluation
   coverage from October 1, 1997, through May 30, 2002. We identified 299 reports
   and published testimony the GAO, IG DoD, the AAA, the Naval Audit Service,
   the AFAA, the DeCA Internal Review Office, and the DLA Internal Review
   Office issued. The reports were analyzed to determine issue areas. We also
   identified and summarized relevant Comptroller General decisions where
   contractors have protested the results of specific OMB Circular No. A-76
   solicitations.

   Use of Computer-Processed Data. We did not use computer-processed data in
   our review.

   GAO High-Risk Area. The GAO has identified several high-risk areas in the
   DoD. This report provides coverage of the DoD high-risk area identified as
   “Overcome support infrastructure inefficiencies.”




                                     24
                                          Independent                                                     Reporting
                                         Review of MEO   Costs Savings                                   Commercial       Program
                                            and Cost      From A-76        Post-MEO   Source Selection Activities Under Oversight and Impact
           Report Number     Report Date   Estimates       Studies          Reviews       Process       the FAIR Act Implementation Assessments

                                                                     GAO
     GAO-02-498T             3/6/02                                                         3
     GAO 01-907T             6/28/01                          3
     GAO-01-388              3/16/01                                                                                                    3
     GAO-01-20               12/7/00                                                        3
     GAO/GGD/NSIAD 00-244    9/29/00                                                                       3
     GAO/NSIAD-00-198        8/11/00                                                                       3
     GAO/NSIAD-00-107        8/8/00                           3
     GAO/NSIAD-00-106        8/8/00                                                                                                     3
     GAO/NSIAD 00-72         7/25/00                          3
     GAO/GGD-00-68           4/14/00                                                                       3
     GAO/NSIAD-00-88         3/28/00                                                                       3




25
     GAO/NSIAD-00-19         10/4/99                                                                                       3
     GAO/NSIAD-99-235R       9/13/99                                                        3
     GAO/NSIAD-99-152        7/21/99                                                        3
     GAO/NSIAD-99-87         4/21/99                                                                                       3
     GAO/NSIAD-99-123        3/31/99                                                        3
                                                                                                                                                  Appendix B. Report Issues Areas




     GAO/T-NSIAD-99-95       3/2/99                                                                                        3
     GAO/NSIAD-99-73         2/26/99                                                                                       3
     GAO/NSIAD-99-66         2/25/99                          3
     GAO/NSIAD-99-44         2/23/99                                                        3
     GAO/NSIAD-99-46         2/22/99                          3
     GAO/T-GGD-98-146        6/4/98                                                                                        3
     GAO/NSIAD-98-100        4/30/98                                                        3
     GAO/NSIAD-98-107        4/27/98                                                                                       3
     GAO/GGD/NSIAD-98-167R   4/27/98                          3
     GAO/NSIAD 98-62         2/27/98                                                                                       3
     GAO/NSIAD-98-82         2/27/98                                                        3
                                               Independent                                                       Reporting
                                              Review of MEO                                                     Commercial          Program
                                                 and Cost     Costs Savings     Post-MEO   Source Selection   Activities Under    Oversight and     Impact
              Report Number     Report Date     Estimates   From A-76 Studies    Reviews       Process         the FAIR Act      Implementation   Assessments

     GAO/NSIAD-98-48          12/8/97                               3
     GAO/AIMD/NSIAD-98-43     10/17/97                                                            3
     GAO/NSIAD-97-200BR       9/12/97                                                             3
     GAO/GGD-97-121           7/1/97                                                                                                   3
     GAO/T-NSIAD-97-110       3/12/97                               3
     GAO/NSIAD-97-86          3/11/97                               3
      GAO Subtotals                                 0               9               0            10                  4                 8              2
                                                                           IG DoD
     D-2002-043               1/25/02                                                             3
     D-2001-173               8/14/01               3
     D-2001-127               5/23/01                                                             3
     D-2001-118               5/14/01                                                             3
     D-2001-023               12/20/00                                              3
     D-2000-117               4/28/00               3




26
     99-244                   9/1/99                3
     99-236                   8/19/99               3
     99-208                   7/8/99                                                                                 3
     99-132                   4/13/99                                                             3
     99-078                   2/5/99                                                                                 3
     97-128                   4/15/97                                                             3
      IG DoD Subtotals                              4               0               1             5                  2                 0              0
                                                                            AAA
     AA02-141                 1/30/02               3
     AA02-136                 1/28/02               3
     AA02-024                 10/10/01              3
     AA01-494                 9/24/01               3
     AA01-493                 9/24/01               3
     AA01-489                 9/20/01               3
                                          Independent                                                       Reporting
                                         Review of MEO                                                     Commercial          Program
                                            and Cost     Costs Savings     Post-MEO   Source Selection   Activities Under    Oversight and     Impact
         Report Number     Report Date     Estimates   From A-76 Studies    Reviews       Process         the FAIR Act      Implementation   Assessments

     AA01-444            8/27/01               3
     AA01-428            8/14/01               3
     AA01-408            8/1/01                3
     AA01-407            8/1/01                3
     AA01-392            7/20/01               3
     AA01-391            7/19/01               3
     AA01-390            7/18/01               3
     AA01-381            7/16/01               3
     AA01-354            6/15/01               3
     AA01-353            6/15/01               3
     AA01-342            6/8/01                3
     AA01-340            6/8/01                3
     AA01-336            6/6/01                3
     AA01-331            6/4/01                3




27
     AA01-308            5/16/01               3
     AA01-307            5/16/01               3
     AA01-264            4/18/01               3
     AA01-248            4/6/01                3
     AA01-247            4/6/01                3
     AA01-246            4/6/01                3
     AA01-233            3/28/01               3
     AA01-223            3/19/01                                                             3
     AA01-198            3/16/01               3
     AA01-209            3/1/01                3
     AA01-205            3/1/01                3
     AA01-192            2/20/01               3
     AA01-191            2/20/01               3
     AA01-190            2/20/01               3
     AA01-162            2/16/01               3
     AA01-158            2/16/01               3
                                           Independent                                                       Reporting
                                          Review of MEO                                                     Commercial          Program
                                             and Cost     Costs Savings     Post-MEO   Source Selection   Activities Under    Oversight and     Impact
          Report Number     Report Date     Estimates   From A-76 Studies    Reviews       Process         the FAIR Act      Implementation   Assessments

     AA01-182             2/14/01               3
     AA01-160             1/18/01               3
     AA01-161             1/18/01               3
     AA01-145             1/11/01               3
     AA01-071             11/21/00              3
     AA01-070             11/21/00              3
     AA01-069             11/21/00                                                            3
     AA01-081             11/16/00              3
     AA01-084             11/15/00              3
     AA01-079             11/15/00              3
     AA01-075             11/9/00               3
     AA01-057             10/31/00                                             3
     AA01-058             10/30/00              3
     AA01-024             10/20/00              3




28
     AA01-027             10/00                 3
     AA01-034             10/16/00              3
     AA01-018             10/5/00               3
     AA01-017             10/5/00               3
     AA01-016             10/2/00               3
     AA00-400             9/21/00               3
     AA00-406             9/18/00               3
     AA00-405             9/7/00                3
     AA00-369             8/25/00               3
     AA00-365             8/18/00               3
     AA00-364             8/18/00               3
     AA00-353             8/10/00               3
     AA00-352             8/10/00               3
     AA00-357             8/9/00                3
     AA00-347             8/2/00                3
     AA00-337             7/20/00               3
                                           Independent                                                       Reporting
                                          Review of MEO                                                     Commercial          Program
                                             and Cost     Costs Savings     Post-MEO   Source Selection   Activities Under    Oversight and     Impact
          Report Number     Report Date     Estimates   From A-76 Studies    Reviews       Process         the FAIR Act      Implementation   Assessments

     AA00-308             6/15/00               3
     AA00-289             6/5/00                3
     AA00-284             5/25/00                                                                                                  3
     AA00-283             5/25/00               3
     AA00-282             5/25/00               3
     AA00-258             5/1/00                3
     AA00-237             4/28/00               3
     AA00-240             4/28/00               3
     AA00-238             4/28/00               3
     AA00-239             4/26/00               3
     AA00-231             4/14/00               3
     AA00-229             4/13/00               3
     AA00-227             4/13/00               3
     AA00-230             4/13/00               3




29
     AA00-216             3/30/00               3
     AA00-215             3/30/00               3
     AA00-207             3/28/00               3
     AA00-212             3/22/00               3
     AA00-209             3/16/00               3
     AA00-173             2/24/00               3
     AA00-189             2/23/00               3
     AA00-187             2/18/00               3
     AA00-176             2/15/00               3
     AA00-172             2/10/00               3
     AA00-171             2/8/00                3
     AA00-170             2/8/00                3
     AA00-169             2/8/00                3
     AA00-155             1/31/00               3
     AA00-145             1/21/00               3
     AA00-144             1/21/00               3
                                          Independent                                                       Reporting
                                         Review of MEO                                                     Commercial          Program
                                            and Cost     Costs Savings     Post-MEO   Source Selection   Activities Under    Oversight and     Impact
          Report Number    Report Date     Estimates   From A-76 Studies    Reviews       Process         the FAIR Act      Implementation   Assessments

     AA00-143             1/21/00              3
     AA00-142             1/21/00              3
     AA00-115             1/21/00              3
     AA00-114             1/13/00              3
     AA00-138             1/10/00              3
     AA00-137             1/7/00               3
     AA00-103             12/16/99             3
     AA00-102             12/16/99             3
     AA00-087             12/16/99             3
     AA00-098             12/6/99              3
     AA00-092             12/3/99              3
     AA00-091             12/1/99              3
     AA00-088             11/30/99             3
     AA00-080             11/23/99             3




30
     AA00-078             11/22/99             3
     AA00-079             11/19/99             3
     AA00-070             11/17/99             3
     AA00-057             11/16/99             3
     AA00-061             11/9/99              3
     AA00-060             11/9/99              3
     AA00-011             10/7/99              3
     AA00-014             10/7/99              3
     AA99-443             9/24/99              3
     AA99-391             8/18/99              3
     AA99-371             8/2/99               3
     AA99-350             7/14/99              3
     AA99-760             6/30/99                              3
     AA99-334             6/28/99              3
     AA99-251             4/26/99              3
     AA99-249             4/22/99              3
                                          Independent                                                       Reporting
                                         Review of MEO                                                     Commercial          Program
                                            and Cost     Costs Savings     Post-MEO   Source Selection   Activities Under    Oversight and     Impact
          Report Number    Report Date     Estimates   From A-76 Studies    Reviews       Process         the FAIR Act      Implementation   Assessments

     AA99-248             4/22/99              3
     AA99-199             3/19/99              3
     AA99-141             1/27/99              3
     AA99-142             1/27/99              3
     AA99-133             1/22/99              3
     AA99-124             1/15/99              3
     AA99-123             1/15/99              3
     AA99-106             12/18/98             3
     AA99-103             12/18/98             3
     AA99-095             12/17/98             3
     AA99-096             12/16/99             3
     AA99-094             12/15/98             3
     AA99-093             12/15/98             3
     AA98-340             9/22/98                                                                                                 3




31
     AA98-764             8/13/98              3
     AA98-304             8/12/98              3
     AA98-303             8/7/98               3
     AA98-301             8/7/98               3
     AA98-286             7/24/98              3
     AA97-092             1/6/97                                                             3
     AAA Subtotals                            139              1              1              3                  0                 2              0
                                             Independent                                                          Reporting
                                            Review of MEO                                                        Commercial          Program
                                               and Cost     Costs Savings        Post-MEO   Source Selection   Activities Under    Oversight and     Impact
             Report Number    Report Date     Estimates   From A-76 Studies       Reviews       Process         the FAIR Act      Implementation   Assessments

                                                                      Naval Audit Service
     N2002-0046              5/6/02               3
     N2002-0044              4/26/02              3
     N2002-0017              12/18/01             3
     N2002-0007              11/2/01              3
     N2002-0006              11/2/01              3
     N2001-0046              8/31/01              3
     061-99                  9/16/99                              3
      Navy Subtotals                              6               1                  0             0                  0                 0              0


                                                                            AFAA
     F2002-004-B05100        12/27/01                                                3
     01064018                9/21/00                              3
     99051008                6/21/00                                                 3




32
     Air Force Subtotals                          0               1                  2             0                  0                 0              0
                                                                            DeCA
     01-22                   9/14/01              3
     01-17                   8/22/01              3
     00-24                   9/12/00              3
     99-08                   4/1/99               3
     99-02                   1/22/99              3
     98-19                   12/1/98              3
     98-14                   7/1/98               3
     98-2                    1/16/98              3
     97-27                   12/4/97              3
     97-13                   11/7/97              3
     97-19                   8/15/97              3
     97-17                   6/13/97              3
     97-11                   3/3/97               3
      DeCA Subtotals                             13               0                  0             0                  0                 0              0
                                            Independent                                                       Reporting
                                           Review of MEO                                                     Commercial          Program
                                              and Cost     Costs Savings     Post-MEO   Source Selection   Activities Under    Oversight and     Impact
            Report Number    Report Date     Estimates   From A-76 Studies    Reviews       Process         the FAIR Act      Implementation   Assessments

                                                                         DLA
     None                   5/30/02              3
     None                   2/1/02               3
     None                   12/19/01             3
     None                   9/4/01               3
     None                   6/29/01              3
     None                   4/20/01              3
     None                   3/23/01              3
     None                   2/23/01              3
     None                   7/27/00              3
     None                   7/12/00              3
     DLA Subtotals                              10               0              0              0                  0                 0              0


     Grand Totals                               172             12              4             18                  6                10              2




33
Appendix C. Reports Related to the Office of
            Management and Budget Circular
            No. A-76 Program
   Users of the electronic version of this report may use the Internet hyperlinks to
   retrieve many of the reports identified in Appendix C. Those reports without
   hyperlinks must be requested from the respective agency.


GAO
   GAO issued 33 reports pertaining to OMB Circular No. A-76 competitions.
   Many of the reports are available on the GAO Web site at http://www.gao.gov.

   GAO Report No. GAO-02-498T, “Competitive Sourcing: Challenges in
   Expanding A-76 Governmentwide,” March 6, 2002

   GAO Report No. GAO-01-907T, “DoD Competitive Sourcing: A-76 Program
   Has Been Augmented by Broader Reinvention Options,” June 28, 2001

   GAO Report No. GAO-01-388, “DoD Competitive Sourcing: Effects of A-76
   Studies on Federal Employees’ Employment, Pay, and Benefits Vary,”
   March 16, 2001

   GAO Report No. GAO-01-20, “DoD Competitive Sourcing: Results of A-76
   Studies Over the Past 5 Years,” December 7, 2000

   GAO Report No. GAO/GGD/NSIAD 00-244, “Competitive Contracting:
   Agencies Upheld Few Challenges and Appeals Under the FAIR Act,”
   September 29, 2000
   GAO Report No. GAO/NSIAD-00-198, “DoD Competitive Sourcing: More
   Consistency Needed in Identifying Commercial Activities,” August 11, 2000

   GAO Report No. GAO/NSIAD-00-107, “DoD Competitive Sourcing: Savings
   Are Occurring, but Actions Are Needed to Improve Accuracy of Savings
   Estimates,” August 8, 2000

   GAO Report No. GAO/NSIAD-00-106, “DoD Competitive Sourcing: Some
   Progress, but Continuing Challenges Remain in Meeting Program Goals,”
   August 8, 2000

   GAO Report No. GAO/NSIAD 00-72, “Defense Management: Actions Needed
   to Sustain Reform Initiatives and Achieve Greater Results,” July 25, 2000



                                        34
GAO Report No. GAO/GGD-00-68, “Competitive Contracting: The
Understandability of FAIR Act Inventories Was Limited,” April 14, 2000

GAO Report No. GAO/NSIAD-00-88, “DoD Competitive Sourcing: Potential
Impact on Emergency Response Operations at Chemical Storage Facilities Is
Minimal,” March 28, 2000

GAO Report No. GAO/NSIAD-00-19, “DoD Competitive Sourcing: Plan
Needed to Mitigate Risk in Army Logistics Modernization Program,”
October 4, 1999

GAO Report No. GAO/NSIAD-99-235R, “DoD Competitive Sourcing: Air
Force Reserve Command A-76 Competitions,” September 13, 1999
GAO Report No. GAO/NSIAD-99-152, “DoD Competitive Sourcing: Lessons
Learned System Could Enhance A-76 Study Process,” July 21, 1999

GAO Report No. GAO/NSIAD-99-87, “Defense Reform Initiative: Organization,
Status, and Challenges,” April 21, 1999

GAO Report No. GAO/NSIAD-99-123, “Quadrennial Defense Review: Status of
Efforts to Implement Personnel Reductions in the Army Materiel Command,”
March 31, 1999

GAO Report No. GAOT/NSIAD-99-95, “Defense Reform Initiative: Progress,
Opportunities, and Challenges,” March 2, 1999

GAO Report No. GAO/NSIAD-99-73, “Force Structure: A-76 Not Applicable to
Air Force 38th Engineering Installation Wing Plan,” February 26, 1999

GAO Report No. GAO/NSIAD-99-66, “Future Years Defense Program: How
Savings From Reform Initiatives Affect DoD’s 1999-2003 Program,”
February 25, 1999

GAO Report No. GAO/NSIAD-99-44, “DoD Competitive Sourcing: Results of
Recent Competitions,” February 23, 1999

GAO Report No. GAO/NSIAD-99-46, “DoD Competitive Sourcing: Questions
About Goals, Pace, and Risks of Key Reform Initiative,” February 22, 1999

GAO Report No. GAO/T-GGD-98-146, “OMB Circular No. A-76: Oversight
and Implementation Issues,” June 4, 1998

GAO Report No. GAO/NSIAD-98-100, “Quadrennial Defense Review: Some
Personnel Cuts and Associated Savings May Not Be Achieved,” April 30, 1998

GAO Report No. GAO/NSIAD-98-107, “Defense Outsourcing: Impact on Navy
Sea-Shore Rotations,” April 27, 1998


                                  35
    GAO Report No. GAO/GGD/NSIAD-98-167R, “Competitive Contracting:
    Information Related to the Redrafts of the Freedom From Government
    Competition Act,” April 27, 1998

    GAO Report No. GAO/NSIAD-98-62, “Defense Outsourcing: Better Data
    Needed to Support Overhead Rates for A-76 Studies,” February 27, 1998

    GAO Report No. GAO/NSIAD-98-82, “Base Operations: DoD’s Use of Single
    Contracts for Multiple Support Services,” February 27, 1998

    GAO Report No. GAO/NSIAD-98-48, “Outsourcing DoD Logistics: Savings
    Achievable But Defense Science Board’s Projections Are Overstated,”
    December 8, 1997

    GAO Report No. GAO/AIMD/NSIAD-98-43, “Financial Management:
    Outsourcing of Finance and Accounting Functions,” October 17, 1997

    GAO Report No. GAO/NSIAD-97-200BR, “Base Operations: Contracting for
    Firefighters and Security Guards,” September 12, 1997

    GAO Report No. GAO/GGD-97-121, “Terms Related to Privatization Activities
    and Processes,” July 1997

    GAO Report No. GAO/T-NSIAD-97-110, “ Defense Outsourcing: Challenges
    Facing DoD as It Attempts to Save Billions in Infrastructure Costs,”
    March 12, 1997

    GAO Report No. GAO/NSIAD-97-86, “Base Operations: Challenges
    Confronting DoD as It Renews Emphasis on Outsourcing,” March 11, 1997


IG DoD
    The IG DoD issued 12 reports pertaining to OMB Circular No. A-76 competitions.
    Visit the IG DoD Web site at http://www.dodig.osd.mil/audit/reports/.

    IG DoD Report No. D-2002-043, “Defense Reutilization and Marketing Service
    Public/Private Competition,” January 25, 2002

    IG DoD Report No. D-2001-173, “Independent Review of the Defense Finance
    and Accounting Service Cost Comparison Study of Civilian Pay Function,”
    August 14, 2001

    IG DoD Report No. D-2001-127, “Data Reliability Assessment Review of
    win.COMPARE2 Software,” May 23, 2001

    IG DoD Report NoD-2001-118, “Public/Private Competition at Lackland Air
    Force Base,” May 14, 2001


                                      36
      IG DoD Report No. D-2001-023, “Implementation of Most Efficient Organization
      for the Defense Finance and Accounting Service Commissary Vendor Payment
      Function,” December 20, 2000

      IG DoD Report No. D-2000-117, “Independent Review of the Defense Finance
      and Accounting Service Competitive Sourcing Study of the Depot Maintenance
      Accounting Function,” April 28, 2000

      IG DoD Report No. 99-244, “Independent Review of the Defense Finance and
      Accounting Service Competitive Sourcing Study of the Transportation
      Accounting Function,” September 1, 1999

      IG DoD Report No. 99-236, “Independent Review of Defense Finance and
      Accounting Service Competitive Sourcing Study of the Defense Commissary
      Agency Accounting Function,” August 19, 1999

      IG DoD Report No. 99-208, “Defense Finance and Accounting Service
      Commercial Activities Program,” July 8, 1999

      IG DoD Report No. 99-132, “Outsourcing of Defense Supply Center, Columbus,
      Bus and Taxi Service Operations,” April 13, 1999

      IG DoD Report No. 99-078, “Outsourcing of Defense Commissary Agency
      Operations,” February 5, 1999

      IG DoD Report No. 97-128, “Evaluation of DoD Civilian Pay Outsourcing
      Study,” April 15, 1997


AAA
      AAA issued 221 reports pertaining to OMB Circular No. A-76 issues and 146 of
      those reports are listed below. The remaining 75 reports were independent
      reviews that were not made public because the final decision for those reports had
      not been made. Visit the AAA Web site at
      http://www.hqda.army.mil/AAAWEB/.

      AAA Report No. AA 02-141, “U.S. Army Audit Agency’s Review of the
      Updated Cost Comparison Form for the Directorate of Information Management
      Commercial Activities Study, U.S. Army War College,” January 30, 2002

      AAA Report No. AA 02-136, “U.S. Army Audit Agency’s Review of the
      Updated Cost Comparison Form for the Directorate of Information Management
      Commercial Activities Study, U.S. Army Materiel Command, Alexandria,
      Virginia,” January 28, 2002




                                          37
AAA Report No. AA 02-024, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for the Directorate
of Information Management Commercial Activities Study, Carlisle Barracks,
Pennsylvania,” October 10, 2001

AAA Report No. AA 01-494, “U.S. Army Audit Agency Review of the Revised
Cost Comparison Form for the Directorate of Logistics, U.S. Army Garrison,
Hawaii,” September 24, 2001

AAA Report No. AA 01-493, “U.S. Army Audit Agency Review of the Revised
Management Study and Technical Performance Plan for the Directorate of
Logistics, U.S. Army Garrison, Hawaii,” September 24, 2001

AAA Report No. AA 01-489, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for the Adjutant
General Commercial Activities Study, Fort Lee, Virginia,” September 20, 2001

AAA Report No. AA 01-444, “U.S. Army Audit Agency Review of the Revised
Technical Performance Plan and Management Study, Public Works Business
Center,” August 27, 2001

AAA Report No. AA 01-428, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for the Adjutant
General Commercial Activities Study, Fort Eustis, Virginia,” August 14, 2001

AAA Report No. AA 01-408, “Lessons Learned in the Review of the
Management Study and In-House Cost Estimate, Fort Polk Whole Base
Commercial Activities Study, Fort Polk Louisiana,” August 1, 2001

AAA Report No. AA 01-407, “U.S. Army Audit Agency’s Review of the
Government Technical Performance Plan for the Fort Polk Whole Base
Commercial Activities Study,” August 1, 2001

AAA Report No. AA 01-392, “Schedule of Adjustments From the Review of the
Cost Comparison Form, Directorate of Logistics and Engineering, U.S. Army
Training Center and Fort Jackson, Fort Jackson, South Carolina,” July 20, 2001

AAA Report No. AA 01-391, “U.S. Army Audit Agency Review of the
Management Study, Dated November 30, 2000, for the Adjutant General Division
Commercial Activities Study,” July 19, 2001

AAA Report No. AA 01-390, “Schedule of Adjustments From the Review of the
Cost Comparison Form Dated 23 April 2001 for the Adjutant General Division
Commercial Activities Study, U.S. Army Garrison, U.S. Army Training Center
and Fort Jackson, South Carolina,” July 18, 2001

AAA Report No. AA 01-381, “U.S. Army Audit Agency Review of the Cost
Comparison Form Dated 23 April 2001 for the Adjutant General Division
Commercial Activities Study,” July 16, 2001


                                   38
AAA Report No. AA 01-354, “Schedule of Adjustments From the Review of the
Management Study and Cost Comparison Form for the Fort Huachuca Adjutant
General Commercial Activities Study,” June 15, 2001

AAA Report No. AA 01-353, “U.S. Army Audit Agency’s Review of the
Management Study and Cost Comparison Form for the Fort Huachuca Adjutant
General Commercial Activities Study, Fort Huachuca, Arizona,” June 15, 2001

AAA Report No. AA 01-342, “Schedule of Adjustments From the Review of the
Cost Comparison Form Dated May 15, 2001 for the Directorate of Logistics
Commercial Activities Study, U.S. Army Garrison, Fort Leonard Wood,
Missouri,” June 8, 2001
AAA Report No. AA 01-340, “U.S. Army Audit Agency Review of the Cost
Comparison Form Dated 15 May 2001 for the Directorate of Logistics
Commercial Activities Study,” June 8, 2001

AAA Report No. AA 01-336, “U.S. Army Audit Agency Review of the
Management Study Dated 11 May 2001 for the Directorate of Logistics
Commercial Activities Study,” June 6, 2001

AAA Report No. AA 01-331, “U.S. Army Audit Agency’s Review of the
Government Technical Performance Plan for the Directorate of Logistics
Cataloging Commercial Activities Study,” June 4, 2001

AAA Report No. AA 01-308, “Schedule of Adjustments From the Review of the
Cost Comparison Form for the Directorate of Information Management
Commercial Activities Study, U.S. Army Materiel Command, Alexandria,
Virginia,” May 16, 2001

AAA Report No. AA 01-307, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for the Directorate
of Information Management Commercial Activities Study,” May 16, 2001

AAA Report No. AA 01-264, “U.S. Army Audit Agency’s Review of the
Directorate of Information Technology Commercial Activities Study—Schedule
of Adjustments, Fort Drum, New York,” April 18, 2001

AAA Report No. AA 01-248, “U.S. Army Audit Agency’s Review of the
Government Technical Performance Plan for the Directorate of Information
Technology Commercial Activities Study, Fort Drum, New York,” April 6, 2001

AAA Report No. AA 01-247, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for the Directorate
of Information Technology Commercial Activities Study, Fort Drum, New York,”
April 6, 2001

AAA Report No. AA 01-246, “U.S. Army Audit Agency’s Review of the
Government Technical Performance Plan for the Tobyhanna Public Works and
Information Technology Commercial Activities Study,” April 6, 2001
                                  39
AAA Report No. AA 01-233, “U.S. Army Audit Agency’s Review of the
Updated Government Cost Comparison Form for the Watervliet Arsenal Base
Operations Support Services Commercial Activities Study, Watervliet, New
York,” March 28, 2001

AAA Report No. AA 01-223, “Congressional Request—Review of the Fort
Leonard Wood Directorate of Logistics Commercial Activities Study,” March 19,
2001

AAA Report No. AA 01-198, “U.S. Army Audit Agency’s Review of the
Management Study and Cost Comparison Form for the Base Support (Logistics)
Commercial Activities Study, U.S. Army Operations Support Command and
Rock Island Arsenal,” March 16, 2001

AAA Report No. AA 01-209, “U.S. Army Audit Agency’s Review of the
Government Technical Performance Plan for the Directorate of Corporate
Information Commercial Activities Study,” March 1, 2001

AAA Report No. AA 01-205, “Review of the Management Study and Cost
Comparison Form for the Fort Riley Directorate of Information Management
Commercial Activities Study,” March 1, 2001

AAA Report No. AA 01-192, “U.S. Army Audit Agency’s Review of the
Government Technical Performance Plan for the Watervliet Arsenal Base
Operations Commercial Activities Study,” February 20, 2001

AAA Report No. AA 01-191, “U.S. Army Audit Agency’s Review of the
Watervliet Arsenal Base Operations Support Services Commercial Activities
Study—Schedule of Adjustments, Watervliet, New York,” February 20, 2001

AAA Report No. AA 01-190, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for the Watervliet
Arsenal Base Operations Support Services Commercial Activities Study,
Watervliet, New York,” February 20, 2001

AAA Report No. AA 01-162, “Review of Commercial Activities, Adjustments to
Cost Comparison Form, Directorate of Public Works,” February 16, 2001

AAA Report No. AA 01-158, “U.S. Army Audit Agency Review of the
Management Study for the Directorate of Public Works,” February 16, 2001

AAA Report No. AA 01-182, “U.S. Army Audit Agency’s Review of the
Government Technical Performance Plan for the Fort Campbell Public Works
Business Center Commercial Activities Study,” February 14, 2001

AAA Report No. AA 01-160, “Review of the Cost Comparison Form for the
Directorate of Logistics Commercial Activities Study, U.S. Army Garrison,
Alaska,” January 18, 2001



                                  40
AAA Report No. AA 01-161, “Review of the Directorate of Logistics
Commercial Activities Study, U.S. Army Garrison, Alaska,” January 18, 2001

AAA Report No. AA 01-145, “Review of the Management Study for the
Directorate of Logistics Commercial Activities Study, U.S. Army Garrison,
Alaska,” January 11, 2001

AAA Report No. AA 01-71, “U.S. Army Audit Agency’s Review of the
Management Study and Cost Comparison Form for Base Support (Logistics) U.S.
Army Operations Support Command and Rock Island Arsenal,”
November 21, 2000

AAA Report No. AA 01-70, “U.S. Army Audit Agency’s Review of the
Management Study and Cost Comparison Form for Base Support (Logistics) U.S.
Army Operations Support Command and Rock Island Arsenal,”
November 21, 2000

AAA Report No. AA 01-69, “Lessons Learned From the Fort Lee Directorate of
Public Works and Directorate of Logistics Commercial Activities Study
Administrative Appeals Process,” November 21, 2000

AAA Report No. AA 01-81, “U.S. Army Audit Agency Review of the Draft
Performance Work Statement for the Fort Eustis Adjutant General Commercial
Activities Study,” November 16, 2000

AAA Report No. AA 01-84, “Recertification of the Cost Comparison Form for
Tooele Army Depot Base Operations Commercial Activities Study,”
November 15, 2000

AAA Report No. AA 01-79, “U.S. Army Audit Agency Review and
Recertification of the In-House Cost Estimate, Dated November 7, 2000, for the
Directorate of Public Works at Charles E. Kelly Support Facility,”
November 15, 2000

AAA Report No. AA 01-75, “U.S. Army Audit Agency Review of the Updated
Government Costs for the Directorate of Logistics and Engineering Commercial
Activities Study,” November 9, 2000

AAA Report No. AA 01-57, “U.S. Army Audit Agency Post-Most Efficient
Organization Review of the Missile Maintenance A-76 Study, U.S. Army
Aviation and Missile Command, Redstone Arsenal, Huntsville, Alabama,”
October 31, 2000

AAA Report No. AA 01-58, “Review of Updated Government Costs for the Fort
Drum Public Works Support Services Commercial Activities Study, Fort Drum,
New York,” October 30, 2000

AAA Report No. AA 01-24, “U.S. Army Audit Agency Review of the Revised
Most Efficient Organization and In-House Cost Estimate for the Directorate of
Logistics Commercial Activities Study,” October 20, 2000
                                   41
AAA Report No. AA 01-27, “Review of Updated Government Costs for the Fort
Drum Public Works Support Services Commercial Activities Study, Fort Drum,
New York,” October 2000

AAA Report No. AA 01-34, “U.S. Army Audit Agency Review and
Recertification of the In-House Cost Estimate for the Directorate of Installation
Public Works, Dated October 16, 2000, U.S. Army War College and Carlisle
Barracks,” October 16, 2000

AAA Report No. AA 01-18, “Review of Commercial Activities Base Operations
Study, Sierra Army Depot, Herlong, California,” October 5, 2000

AAA Report No. AA 01-17, “Review of the Government Management Study and
Cost Comparison Form for Base Operations Commercial Activities Study, Sierra
Army Depot,” October 5, 2000

AAA Report No. AA 01-16, “Review of Updated Government Costs for the Fort
Drum Logistics Support Services Commercial Activities Study, Fort Drum, New
York,” October 2, 2000

AAA Report No. AA 00-400, “U.S. Army Audit Agency Review of the
Management Study of the Public Works Business Center, Fort Campbell,”
September 21, 2000

AAA Report No. AA 00-406, “Review of Updated Government Costs for the
Commercial Activities Study of the Fort Stewart Directorate of Public Works,”
September 18, 2000

AAA Report No. AA 00-405, “U.S. Army Audit Agency Review of the Revised
Cost Comparison Form for the Logistics Division Commercial Activity Study,
Readiness Business Center,” September 7, 2000

AAA Report No. AA 00-369, “U.S. Army Audit Agency’s Review of the
Government Technical Performance Plan for the Fort Drum Public Works
Support Services Commercial Activities Study,” August 25, 2000

AAA Report No. AA 00-365, “Review of Commercial Activities, Central Issue
Facility, Fort Lewis, Washington,” August 18, 2000

AAA Report No. AA 00-364, “Review of the Government Management Study
and Cost Comparison Form for the Central Issue Facility Commercial Activities
Study, Fort Lewis, Washington,” August 18, 2000

AAA Report No. AA 00-353, “U.S. Army Audit Agency’s Review of the
Government Costs and Most Efficient Organization for the U.S. Army Air
Defense Artillery Center and Fort Bliss Directorate of Public Works and
Logistics, Fort Bliss, Texas,” August 10, 2000




                                    42
AAA Report No. 00-352, “U.S. Army Audit Agency’s Review of the Government
Management Study and Costs Comparison Form for the Fort Bliss Directorate of
Public Works and Logistics, U.S. Army Air Defense Artillery Center and Fort
Bliss, Texas,” August 10, 2000

AAA Report No. AA 00-357, “U.S. Army Audit Agency’s Review of the
Government Technical Performance Plan for the Fort Drum Directorate of
Logistics Commercial Activity Study,” August 9, 2000

AAA Report No. AA 00-347, “U.S. Army Audit Agency’s Review of the U.S.
Military Academy Custodial Services Commercial Activities Study Schedule of
Adjustments, West Point, New York,” August 2, 2000
AAA Report No. AA 00-337, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for the U.S. Military
Academy Custodial Services Commercial Activities Study, West Point, New
York,” July 20, 2000

AAA Report No. AA 00-308, “U.S. Army Audit Agency’s Review of the
Government Technical Performance Plan for the Logistics Division Commercial
Activity Study,” June 15, 2000

AAA Report No. AA 00-289, “U.S. Army Audit Agency Review of the
Government Management Study and Cost Comparison Form for the Directorate
of Logistics and Engineering Commercial Activity Study,” June 5, 2000

AAA Report No. AA 00-284, “Revisions to the In-House Cost Estimate After the
Initial Estimate Has Been Sealed,” May 25, 2000

AAA Report No. AA 00-283, “Review of Commercial Activities, Directorate of
Public Works, Fort Sill, Oklahoma,” May 25, 2000

AAA Report No. AA 00-282, “U.S. Army Audit Agency Review of the Cost
Comparison Form for the Directorate of Public Works, dated May 24, 2000,”
May 25, 2000
AAA Report No. AA 00-258, “Review of Updated Government Costs for the Fort
McPherson Directorate of Installation Support, Fort McPherson, Georgia,”
May 1, 2000

AAA Report No. AA 00-237, “U.S. Army Audit Agency Review of the
Management Study of the Directorate of Public Works, Fort Eustis, Virginia,”
April 28, 2000

AAA Report No. AA 00-240, “Schedule of Adjustments From the Review of the
Cost Comparison Form, Directorate of Installation Public Works, U.S. Army War
College and Carlisle Barracks, Pennsylvania,” April 28, 2000

AAA Report No. AA 00-238, “Review of the Fort Eustis Directorate of Public
Works In-House Cost Estimate,” April 28, 2000
                                   43
AAA Report No. AA 00-239, “U.S. Army Audit Agency Review of the Cost
Comparison Form for the Directorate of Installation Public Works, Dated
April 25, 2000, U.S. Army War College and Carlisle Barracks,” April 26, 2000

AAA Report No. AA 00-231, “Lessons Learned in the Review of the
Management Study and In-House Cost Estimate, Directorates of Public Works
and Logistics, Fort Benning Georgia,” April 14, 2000

AAA Report No. AA 00-229, “U.S. Army Audit Agency’s Review of the
Management Study and Cost Comparison Form for the Directorate of Base
Operations Support, U.S. Army Armor Center and Fort Knox Schedule of
Adjustments,” April 13, 2000

AAA Report No. AA 00-227, “U.S. Army Audit Agency’s Review of the
Management Study and Cost Comparison Form for the Directorate of Base
Operations Support, U.S. Army Armor Center and Fort Knox, Schedule of
Adjustments,” April 13, 2000

AAA Report No. AA 00-230, “Review of Most Efficient Organization and
Government Costs for the Commercial Activities Study of the Fort Benning
Directorates of Public Works and Logistics,” April 13, 2000

AAA Report No. AA 00-216, “Schedule of Adjustments From the Review of the
Cost Comparison Form for the Red River Locks and Dams Commercial Activities
Study,” March 30, 2000

AAA Report No. AA 00-215, “Review of Most Efficient Organization and
Government Costs for the Commercial Activities Study of the Operation and
Maintenance of Five Government-Owned Locks and Dams Located on the Red
River Waterway,” March 30, 2000

AAA Report No. AA 00-207, “Review of the Fort Monroe Directorate of Public
Works and Directorate of Logistics In-House Cost Estimate,” March 28, 2000

AAA Report No. AA 00-212, “U.S. Army Audit Agency Review of the Update to
the Fort Hood G-3, Range Division; Range Operations, Maintenance and Support
Services Cost Comparison Form,” March 22, 2000

AAA Report No. AA 00-209, “Review of Updated Government Costs for the Fort
Drum Readiness Business Center Commercial Activities Study, Fort Drum, New
York,” March 16, 2000

AAA Report No. AA 00-173, “Lessons Learned in the Review of the
Management Study and In-House Cost Estimate, Directorate of Engineering and
Logistics, Fort Rucker, Alabama,” February 24, 2000

AAA Report No. AA 00-189, “U.S. Army Audit Agency Review of the Cost
Comparison Form for the Redstone Arsenal Support Activity, Redstone Arsenal,
Alabama,” February 23, 2000


                                  44
AAA Report No. AA 00-187, “Review of the Management Study for the
Directorate of Public Works Commercial Activities Study dated January 21,
2000,” February 18, 2000

AAA Report No. AA 00-176, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for the Logistics
Division Commercial Activity Study, Readiness Business Center, Fort Bragg,
North Carolina,” February 15, 2000

AAA Report No. AA 00-172, “Review of Government Costs for the Fort Rucker
Directorate of Engineering and Logistics Commercial Activities Study,”
February 10, 2000
AAA Report No. AA 00-171, “Adjustments to Cost Comparison Form,
Directorate of Logistics,” February 8, 2000

AAA Report No. AA 00-170, “U.S. Army Audit Agency Review of the Cost
Comparison Form for the Directorate of Logistics (4 February 2000),”
February 8, 2000

AAA Report No. AA 00-169, “U.S. Army Audit Agency Review of the
Management Study for the Directorate of Logistics,” February 8, 2000

AAA Report No. AA 00-155, “Review of the Management Study, Redstone
Arsenal Support Activity,” January 31, 2000

AAA Report No. AA 00-145, “Review of Commercial Activities, Directorates of
Logistics and Public Works, Fort Leavenworth, Kansas,” January 21, 2000

AAA Report No. AA 00-144, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for Fort
Leavenworth’s Directorates of Logistics and Public Works,” January 21, 2000

AAA Report No. AA 00-143, “Lessons Learned in the Review of the
Management Study and In-House Cost Estimate for Installation Support Services,
Anniston Army Depot,” January 21, 2000

AAA Report No. AA 00-142, “Review of Government Costs for the Anniston
Army Depot’s Installation Support Services Commercial Activities Study,”
January 21, 2000

AAA Report No. AA 00-115, “Lessons Learned in the Review of the
Management Study and In-House Cost Estimate for Information Management,
Anniston Army Depot,” January 21, 2000

AAA Report No. AA 00-114, “Review of Government Costs for the Anniston
Army Depot’s Information Management Commercial Activities Study,”
January 13, 2000


                                  45
AAA Report No. AA 00-138, “U.S. Army Audit Agency Review of the
Management Study of the Directorates of Engineering and Logistics, Carlisle
Barracks,” January 10, 2000

AAA Report No. AA 00-137, “Independent Review of the Revised Most Efficient
Organization and In-House Cost Estimate for the Directorate of Logistics
Commercial Activities Study,” January 7, 2000

AAA Report No. AA 00-103, “U.S. Army Audit Agency’s Review of the
Government Cost Comparison Form for the Blue Grass Army Depot Base
Operation Commercial Activities Study—Schedule of Adjustments, Richmond,
Kentucky,” December 16, 1999

AAA Report No. AA 00-102, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for Blue Grass
Army Depot Base Operations Commercial Activities Study,” December 16, 1999

AAA Report No. AA 00-87, “U.S. Army Audit Agency Review of the
Management Study of the Directorates of Engineering and Logistics, Fort
Monroe,” December 16, 1999

AAA Report No. AA 00-98, “Lessons Learned in the Review of the In-House
Cost Estimate, Charles E. Kelly Support Facility, Oakdale, Pennsylvania,”
December 6, 1999

AAA Report No. AA 00-92, “U.S. Army Audit Agency’s Review of the
Government Cost Comparison Form for the Fort Drum Public Works Support
Services Commercial Activities Study – Schedule of Adjustments, Fort Drum,
New York,” December 3, 1999

AAA Report No. AA 00-91, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for the Fort Drum
Public Works Support Services Commercial Activities Study, Fort Drum, New
York,” December 1, 1999

AAA Report No. AA 00-88, “Independent Review Services for the U.S. Army
Test, Measurement, and Diagnostic Equipment Activity Commercial Activities
Study,” November 30, 1999

AAA Report No. AA 00-80, “U.S. Army Audit Agency Review of the Cost
Comparison Form for the Charles E. Kelly Support Facility, dated
November 18, 1999,” November 23, 1999

AAA Report No. AA 00-78, “AAA Review of the Government Management
Study and Cost Comparison Form for the Red River Army Depot Directorates of
Public Works and Information Management Commercial Activity,”
November 22, 1999




                                   46
AAA Report No. AA 00-79, “U.S. Army Audit Agency’s Review of the
Government Cost Comparison Form for the Tooele Army Depot Base Operations
Commercial Activities Study Schedule of Adjustments, Tooele Army Depot,”
November 19, 1999

AAA Report No. AA 00-70, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for Tooele Army
Depot Base Operations Commercial Activities Study,” November 17, 1999

AAA Report No. AA 00-57, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for the Fort Riley
Directorate of Public Works Commercial Activities Study, Fort Riley, Kansas,”
November 16, 1999
AAA Report No. AA 00-61, “Lessons Learned in the Review of the Management
Study and In-House Cost Estimate, Directorate of Public Works, Fort Stewart,
Georgia,” November 9, 1999

AAA Report No. AA 00-60, “Review of Government Costs for the Fort Stewart
Directorate of Public Works Commercial Activities Study,” November 9, 1999

AAA Report No. AA 00-11, “U.S. Army Audit Agency’s Review of the
Government Management Study and Cost Comparison Form for the Fort Drum
Readiness Business Center Commercial Activities Study, Fort Drum, New York,”
October 7, 1999

AAA Report No. AA 00-14, “U.S. Army Audit Agency’s Review of the
Government Cost Comparison Form for the Fort Drum Readiness Business
Center Commercial Activities Study – Schedule of Adjustments, Fort Drum,
New York,” October 7, 1999

AAA Report No. AA 99-443, “U.S. Army Audit Agency Review of the Cost
Comparison Form for the Fort Lee Directorate of Logistics and Directorate of
Public Works Commercial Activities Study,” September 24, 1999
AAA Report No. AA 99-391, “U.S. Army Audit Agency Review of the Cost
Comparison Form for the Fort Lee Directorate of Logistics and Directorate of
Public Works Commercial Activities Study,” August 18, 1999

AAA Report No. AA 99-371, “Schedule of Adjustments From the Review of the
Cost Comparison Form, Directorate of Installation Support, Fort McPherson,
Georgia,” August 2, 1999

AAA Report No. AA 99-350, “Review of the Management Study, Charles E.
Kelly Support Facility,” July 14, 1999

AAA Report No. AA 99-760, “Cost of the Directorate of Logistics Competitive
Sourcing Study—Phase I, Fort Carson, Colorado,” June 30, 1999


                                   47
AAA Report No. AA 99-334, “Review of Government Cost for the Fort
McPherson Directorate of Installation Support Commercial Activities Study,”
June 28, 1999

AAA Report No. AA 99-251, “U.S. Army Audit Agency Review of the
Management Study for the Fort Lee Directorate of Logistics and Directorate of
Public Works Commercial Activities Study,” April 26, 1999

AAA Report No. AA 99-249, “U.S. Army Audit Agency’s Review of Fort
Drum’s Directorate of Logistics Commercial Activities Study-Schedule of
Adjustments, Fort Drum, New York,” April 22, 1999

AAA Report No. AA 99-248, “Review of Government Costs for the Fort Drum
Directorate of Logistics Commercial Activities Study, Fort Drum, New York,”
April 22, 1999

AAA Report No. AA 99-199, “U.S. Army Audit Agency Review of the
Government Costs of Most Efficient Organization for the Fort Hood G-3, Range
Division, Range Operations, Maintenance, and Support Services Commercial
Activities Study,” March 19, 1999

AAA Report No. AA 99-141, “Review of Government Costs for the U.S. Army
Forces Command Administrative Services Division Commercial Activities
Study,” January 27, 1999

AAA Report No. AA 99-142, “Review of Commercial Activities Study,
Administrative Services Division, U.S. Army Forces Command,”
January 27, 1999

AAA Report No. AA 99-133, “U.S. Army Audit’s Review of Aberdeen Test
Center’s Administrative and Test Support Services Commercial Activities Study-
Schedule of Adjustments, Aberdeen Proving Ground, Maryland,”
January 22, 1999

AAA Report No. AA 99-124, “U.S. Army Audit Agency Review of Commercial
Activities, Information Management Schedule of Adjustments, U.S. Army
Aberdeen Proving Ground,” January 15, 1999

AAA Report No. AA 99-123, “U.S. Army Audit Agency Review of Commercial
Activities, Installation Operations and Community and Family Activities
Schedule of Adjustments, U.S. Army Aberdeen Proving Ground,”
January 15, 1999

AAA Report No. AA 99-106, “Review of Government Costs for the Aberdeen
Test Center’s Administrative and Test Support Services Commercial Activities
Study, Aberdeen Proving Ground, Maryland,” December 18, 1998




                                   48
AAA Report No. AA 99-103, “U.S. Army Audit Agency Review of the
Management Study for the Aberdeen Test Center’s Administrative and Test
Support Services Commercial Activities Study, Aberdeen Proving Ground,
Maryland,” December 18, 1998

AAA Report No. AA 99-95, “U.S. Army Audit Agency Review of the
Government Costs for the Aberdeen Proving Ground Installation Operations and
Community and Family Activities Commercial Activities Study,”
December 17, 1998

AAA Report No. AA 99-96, “U.S. Army Audit Agency Review of Government
Costs for the Aberdeen Proving Ground Information Management Commercial
Activities Study,” December 16, 1998
AAA Report No. AA 99-94, “U.S. Army Audit Agency Review of the
Management Study for the Aberdeen Proving Ground Information Management
Commercial Activities Study,” December 15, 1998

AAA Report No. AA 99-93, “U.S. Army Audit Agency Review of the
Management Study for the Aberdeen Proving Ground Installation Operations and
Community and Family Activities Commercial Activities Study,”
December 15, 1998

AAA Report No. AA 98-340, “Observations and Lessons Learned on A-76 Cost
Competition Studies,” September 22, 1998

AAA Report No. AA 98-764, “Cost Validation of A-76 Study—Forensic
Toxicology Drug Testing Laboratory, Tripler Army Medical Center,”
August 13, 1998

AAA Report No. AA 98-304, “U.S. Army Audit Agency’s Review of the Final
Draft Management Study and the Draft Technical Performance Plan for the Fort
Bragg Logistics Division Commercial Activity Study,” August 12, 1998

AAA Report No. AA 98-303, “Schedule of Adjustments to the Cost Comparison
Form, Directorate of Logistics, Fort Carson, Colorado,” August 7, 1998

AAA Report No. AA 98-301, “Review of Government Costs for the Fort Carson
Directorate of Logistics Commercial Activities Study, Fort Carson, Colorado,”
August 7, 1998

AAA Report No. AA 98-286, “U.S. Army Audit Agency’s Review of the Most
Efficient Organization, dated 17 April 1998, for the Fort Carson Directorate of
Logistics Commercial Activity Study,” July 24, 1998

AAA Report No. AA 97-92, “U.S. Air Force Commercial Activities Cost
Comparison System,” January 6, 1997



                                    49
Naval Audit Service
    The Naval Audit Service issued seven reports pertaining to OMB
    Circular No. A-76 competitions. Visit the Naval Audit Service’s Web site at
    http://www.hq.navy.mil/NavalAudit. The Naval Audit Service did not start
    issuing reports on its Independent Reviews until FY 2001. Prior to FY 2001, the
    Naval Audit Service provided the IRO certification with a transmittal letter.

    Naval Audit Service Report No. N2002-0046, “Independent Review: Facilities
    Support Services Function at Marine Corps Air Station, Beaufort, SC,”
    May 6, 2002

    Naval Audit Service Report No. N2002-0044, “Independent Review:
    Photographic Optics Branch Functions at the Naval Air Warfare Center, Weapons
    Division, Point Mugu and China Lake, CA,” April 26, 2002

    Naval Audit Service Report No. N2002-0017, “Independent Review: Tools and
    Parts Attendant Services Function at the Naval Aviation Depot, Cherry Point,
    NC,” December 18, 2001

    Naval Audit Service Report No. N2002-0007, “Independent Review:
    Administrative and Clerical Functions at Naval Sea Systems Command,
    Washington, DC,” November 2, 2001

    Naval Audit Service Report No. N2002-0006, “Independent Review: Naval
    Supply Systems Command Southeast Region Household Goods Function,
    Jacksonville, FL,” November 2, 2001

    Naval Audit Service Report No. N2001-0046, “Independent Review: Clerical and
    Administrative Functions at the Naval Aviation Depot, Cherry Point, NC,”
    August 31, 2001

    Naval Audit Service Report No. 061-99, “Department of the Navy Competitive
    Sourcing Program,” September 16, 1999


AFAA
    The AFAA issued three reports pertaining to OMB Circular No. A-76
    competitions. Visit the AFAA Web site at http://www.afaa.hq.af.mil/. Before
    January 1, 2002, the Secretary of the Air Force, Financial Management and
    Comptroller and the Air Force command comptroller organizations had
    independent review responsibility. The comptrollers of the major commands
    conducted OMB Circular No. A-76 independent reviews. In January 2002 the
    AFAA became responsible for new independent review studies, and in June 2002
    the AFAA became responsible for all independent review studies.



                                       50
    AFAA Report No. F2002-0004-B05100, “Most Efficient Organization
    Performance Reviews,” December 27, 2001

    AFAA Report No. 01064018, “Memorandum Report, Pacific Air Forces’
    Programming and Budgeting Actions Associated with Office of Management and
    Budget Circular A-76 Reviews,” September 21, 2001

    AFAA Report No. 99051008, “Most Efficient Organization Performance
    Reviews,” June 21, 2000


DeCA, Internal Review
    DeCA issued 13 reports pertaining to OMB Circular No. A-76 competitions.

    DeCA Report No. 01-22, “Independent Review of the In-House Cost Estimate,
    Fort Sam Houston Commissary,” September 14, 2001

    DeCA Report No. 01-17, “Independent Review of Commercial Activities Study
    and Cost Comparisons for Receiving, Storage, and Holding, Residual Grocery,
    and Custodial Functions at Fort Carson Commissary,” August 22, 2001 Report
    No. 00-24, “Independent Review of the In-House Cost Estimate, Quantico
    MCCDC [Marine Corps Combat Development Command] Commissary,”
    September 12, 2000

    DeCA Report No. 99-8, “Independent Review of the In-House Cost Estimate,
    Fort Bragg, Mallonee Village, and Pope Air Force Commissaries,” April 1, 1999

    DeCA Report No. 99-2, “Independent Review of the In-House Cost Estimate,
    Fort Drum Commissary,” January 22, 1999

    DeCA Report No. 98-19, “Independent Review of the In-House Cost Estimate,
    Fort Bragg, Mallonee Village, and Pope Air Force Commissaries,”
    December 1, 1998

    DeCA Report No. 98-14, “Review of the Revised Commercial Activities Study
    and Comparison for Custodial, Shelf Stocking, and Receiving, Storage and
    Holding Functions at Fort Drum Commissary,” July 1, 1998

    DeCA Report No. 98-2, “Independent Review of the In-House Cost Estimate,
    Fort Drum Commissary,” January 16, 1998

    DeCA Report No. 97-27, “Independent Review of the In-House Cost Estimate,
    Fort Leonard Wood,” December 4, 1997

    DeCA Report No. 97-13, “Revision to Cost Comparison Form for the Kaneohe
    Bay Commercial Activities Study Internal Review Report 97-13,”
    November 7, 1997

                                      51
      DeCA Report No. 97-19, “Independent Review of the In-House Cost Estimate,
      Fort Bragg, Mallonee Village, and Pope Air Force Commissaries,”
      August 15, 1997

      DeCA Report No. 97-17, “Independent Review of the In-House Cost Estimate,
      Camp Pendleton, Internal Review Report 97-17” June 13, 1997

      DeCA Report No. 97-11, “Review of Commercial Activities Study and Cost
      Comparisons for Shelf Stocking, Receiving, Storage, and Holding Functions at
      San Onofre Commissary Internal Review,” April 3, 1997


DLA
      The DLA Internal Review office issued 10 memorandums pertaining to
      independent reviews conducted under its direction as the IRO by Arthur
      Andersen.

      Findings and Recommendations (Albany Depot A-76) Contract
      No: SP4700-98-D-0001, Delivery Order: 0005, May 30, 2002

      Findings and Recommendations (Albany Depot A-76) Contract
      No: SP0700-00-R-7005, Delivery Order: 0002, February 1, 2002

      Findings and Recommendations (Richmond Depot A-76) Contract
      No: SP0700-00-R-7005, Delivery Order: 0002, December 19, 2001

      Findings and Recommendations (DAPS [Document Automation and Production
      Service] A-76) Contract No: SP4700-98-D-0001, Delivery Order: 0004,
      September 4, 2001

      Findings and Recommendations (Albany Depot A-76) Contract
      No: SP4700-98-D-0001, Delivery Order: 0005, June 29, 2001
      Findings and Recommendations (Cherry Point Depot A-76) Contract
      No: SP0700-00-R-7005, Delivery Order: 0002, April 20, 2001

      Findings and Recommendations (Richmond Depot A-76) Contract
      No: SP4700-98-D-0001, Delivery Order: 0005, March 23, 2001

      Findings and Recommendations (Jacksonville Depot A-76) Contract
      No: SP0700-00-R-7005, Delivery Order: 0002, February 23, 2001

      Findings and Recommendations (Cherry Point Depot A-76) Contract
      No: SP4700-98-D-001, Delivery Order: 0002, July 27, 2000

      Findings and Recommendations (Jacksonville Depot A-76) Contract
      No: SP4700-98-D-001, Delivery Order: 0002, July 12, 2000


                                         52
Appendix D. Synopsis of Comptroller General
            Decisions Affecting Office of
            Management and Budget Circular
            No. A-76 Independent Reviews
   Del-Jen, Incorporated File B-287273.2, January 23, 2002. Del-Jen,
   Incorporated protested the cost comparison decision of the Air Force, pursuant to
   OMB Circular No. A-76, to retain in-house performance of base operation
   services for Hanscom Air Force Base in Massachusetts, rather than contract for
   the services. Del-Jen, Incorporated argued that the agency did not properly
   account for, and thereby understated, the contract administration costs that should
   be included as costs of in-house performance. Del-Jen, Incorporated argued the
   agency failed to ensure that the MEO included sufficient staffing to satisfy the
   PWS requirements and that the in-house plan and private-sector offer were based
   on a comparable level and quality of performance. The Del-Jen, Incorporated
   protest was sustained; deficiencies in the cost comparison existed that could have
   materially affected the outcome of the comparison.

   The Jones/Hill Joint Venture B-286194.4; B-286194.5; B-286194.6,
   December 5, 2001. Jones/Hill Joint Venture protested that a conflict of interest
   existed in certain aspects of the OMB Circular No. A-76 study where a private-
   sector consultant wrote and edited the PWS and then prepared the management
   plan for in-house performance. The Navy’s IRO certified that the Government
   was able to perform the requirements of the PWS with the resources provided in
   the in-house management plan. However, the IRO certification could not be
   found reasonable where the IRO certification was unsupported by the existing
   documentation or the arguments, explanations, or testimony in the record. The
   agency’s in-house management plan was misevaluated where the record failed to
   illustrate that the costs of personnel, not part of the MEO, were included in the
   IHCE. The Jones/Hill protest was sustained, where the agency’s cost comparison
   decision was found to be unreasonable, insofar as it did not account for several
   strengths identified in the Jones/Hill proposal.

   DynCorp Technical Services LLC B-284833.3; B-284833.4, July 17, 2001.
   DynCorp Technical Services LLC (DynCorp) protested the decision of the Air
   Force to retain in-house performance of base operation services for Maxwell Air
   Force Base and Gunter Annex in Alabama, rather than contract for these services.
   DynCorp contended that Government-furnished material, a common cost item,
   should have been deducted from DynCorp’s estimated costs, as was done in the
   in-house estimate; thereby, DynCorp would have proposed a lower cost
   performance offer than the MEO. In addition, DynCorp challenged that the MEO
   did not offer the same scope of work and performance standards. DynCorp also
   argued that if the Air Force did not view DynCorp’s accelerated performance
   schedule as being of value to the agency, Air Force should have reduced
   DynCorp’s probable costs to reflect a nonaccelerated performance schedule,
   which DynCorp estimated would be more than a $2 million reduction in its
   proposal costs. The DynCorp protest of the agency decision to retain service
   operations in-house was sustained where the record showed that the agency did


                                       53
not consider the cost of Government-furnished material as a common cost item, as
it should have, but accepted the IHCE, which deducted the value of Government-
furnished material to be supplied to the winner of the competition. The agency
also did not adjust the protester’s proposal for a cost-reimbursement contract,
which did not deduct the value of the Government-furnished material.

BAE Systems File B-284189; B-287189.2, May 14, 2001. BAE Systems
protested the decision of the Army to retain in-house performance of logistics
support and services for the U.S. Army Garrison in Hawaii based on the cost
comparison results pursuant to OMB Circular No. A-76. The protest challenging
a cost comparison conducted pursuant to OMB Circular No. A-76 was sustained
where the agency did not reasonably determine that the in-house plan satisfied the
PWS requirements. In addition, the administrative appeals board decision, which
reversed the original cost comparison determination in favor of the protester, was
sustained, where the board’s determination as to how much staffing was required
to be added to the MEO to perform the PWS requirements lacked a reasonable
basis. In a negotiated procurement, in which the private-sector offer was to be
selected based on a cost-technical tradeoff, the agency improperly failed to
consider the protester’s offer to meet a performance standard that appeared to
exceed the PWS.

The Jones/Hill Joint Venture-Costs File B-286194.3, March 27, 2001. The
Jones/Hill Joint Venture protested the decision of the Navy to retain in-house
performance of base operations and support services for the Naval Air Station in
Lemoore, California, based on the cost comparison results pursuant to OMB
Circular No. A-76. In that regard, the Jones/Hill proposal was clearly
meritorious, where certain aspects identified during the evaluation of the best
value private sector offer proposal were not considered by the agency in
determining the adequacy of the agency’s comparison of the performance
reflected in the Naval Air Station MEO management study with the performance
reflected in Jones/Hill’s proposal, and the reasonableness of the agency’s
determination that the revised MEO and Jones/Hill’s proposal offered the same
level of performance and performance quality. GAO recommended that
Jones/Hill be reimbursed for the reasonable costs of filing and pursuing its
protest.

Trajen, Incorporated B-284310; B-284310.2, March 28, 2000. The Navy
appealed the initial cost comparison decision, pursuant to OMB
Circular No. A-76, that contractor performance with Trajen, Incorporated (Trajen)
was more economical than in-house performance for Defense Fuel Support Point,
Pearl Harbor, Hawaii. The decision resolved in Trajen’s favor, for certain issues
had a material effect on the outcome of the initial cost comparison. One issue
related to the appeal authority’s failure to recognize that the Government did not
propose personnel to perform the spot painting requirement contained in the
request for proposal’s PWS. Also, the appeal authority had no reasonable basis to
reject a 7.5-percent relocation figure developed in the initial cost comparison.
Trajen’s protest of the agency appeal authority’s cost comparison decision was
sustained where the appeal authority lacked a reasonable basis for reversing the
initial cost comparison conclusion that contractor performance was more
economical than in-house performance.



                                    54
Aberdeen Technical Services File B-283727.2, February 22, 2000. Aberdeen
Technical Services protested the decision of the Army to retain in-house
performance of base industrial operations for the Aberdeen Proving Ground in
Maryland rather than contract for these services. The Aberdeen Technical
Services protest that the IHCE did not include the full cost of performance for the
project manager and other key personnel positions as required by the solicitation
was sustained. Aberdeen Technical Services’ protest that the agency improperly
disallowed a price reduction offered by the protester in its final proposal revision
was sustained where the solicitation contemplated the award of a fixed-price
contract, and any risks associated with performance thus would be borne by the
contractor, and not the Government. In a subsequent protest, an allegation that
the agency improperly failed to follow the requirements contained in OMB
Circular No. A-76 and the Revised Supplemental Handbook for comparing its
best value proposal with the MEO was sustained.




                                     55
Appendix E. Report Distribution

Office of the Secretary of Defense
Undersecretary of Defense for Acquisition, Technology, and Logistics
  Assistant to the Secretary of Defense (Nuclear and Chemical and Biological Defense
     Programs)
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Intelligence
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense (Health Affairs)



Joint Staff
Office of the Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force




                                         56
Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget
  Director, Office of Federal Procurement Policy
General Services Administration, Inspector General

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          57
Team Members
The Contract Management Directorate, Office of the Deputy Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Henry F. Kleinknecht
Kent E. Shaw
Stan G. Orr
Lawrence N. Heller
Benita L. Holliman
James E. Miniter
Robert E.L. Smith
Todd L. Truax
Deana M. Wyatt
Erica D. Kimbrough
Sharon L. Carvalho
Robert K. West
